             OFFICE OF
      THE INSPECTOR GENERAL

  SOCIAL SECURITY ADMINISTRATION


   THE SOCIAL SECURITY ADMINISTRATION’S
          IMPLEMENTATION OF THE
        FUTURE SYSTEMS TECHNOLOGY
    ADVISORY PANEL’S RECOMMENDATIONS

        August 2012    A-14-12-11222




EVALUATION REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      August 20, 2012                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Implementation of the Future Systems Technology
           Advisory Panel’s Recommendations (A-14-12-11222)


           OBJECTIVE
           The objective of our review was to determine what corrective action(s) the Social
           Security Administration (SSA) had taken, or planned to take, to address the
           recommendations made by the Future Systems Technology Advisory Panel (FSTAP).
           In addition, we reviewed the costs associated with supporting the Panel to determine
           whether the Agency received any cost savings from implementing its recommendations.

           BACKGROUND
           In February 2008, the Commissioner of Social Security established FSTAP under the
           Federal Advisory Committee Act of 1972 1 (FACA). FSTAP’s mission was to provide
           independent advice and recommendations on the future of systems technology and
           electronic services at SSA. FSTAP comprised individuals from private industry, Federal
           agencies, nonprofit organizations, and universities. 2 FSTAP’s advice and
           recommendations were related to areas of future Internet applications, customer
           service, privacy, and other areas vital to the Agency’s ability to serve the American
           people (see Appendix C for FSTAP’s Charter).




           1
               Pub. L. No. 92-463 § 2-15, 86 Stat. 770-776 (1972).
           2
               See Appendix B.
Page 2 - The Commissioner


Between September 2009 and June 2010, FSTAP issued four reports. The FSTAP
reports are no longer available on the Agency’s Website but are included in Appendices
D through G.

         Low Hanging Fruit/Quick Victories
         Data Center Migration
         Legacy Systems Conversion
         Re-imagining Social Security

The reports, which were previously available on SSA’s Website, contained
78 recommendations 3 that the Panel members believed warranted SSA’s consideration.

On January 9, 2012 (after the conclusion of our review), the Commissioner of Social
Security terminated FSTAP because of budgetary constraints. In February 2012, the
Agency published on its Website a notice that SSA did not have the resources to
support the Panel or implement its recommendations. It should be noted that our
evaluation results pre-dated FSTAP’s termination by the Commissioner.

To achieve our objective, we reviewed FSTAP minutes; transcripts; Agency responses
to our inquiries on the implementation of FSTAP recommendations; and the cost data
related to FSTAP members’ compensation, travel reimbursements, and meeting
accommodations. For additional scope and methodology, see Appendix I.

RESULTS OF REVIEW
There was insufficient documentation for us to determine what corrective action(s) SSA
had taken or planned to take in response to FSTAP recommendations. Because we
could not determine the Agency’s action(s), we could not determine whether the Agency
received any cost savings from implementing its recommendations. This report
provides an overview of the recommendations, the Agency’s corrective action we
gleaned from reviewing FSTAP minutes and transcripts, and the cost of FSTAP.

Our review of FSTAP meeting minutes, transcripts, and reports determined that SSA
agreed with 52 (67 percent) of the 78 recommendations and disagreed with
6 recommendations (8 percent). The Agency did not provide sufficient information for
us to determine whether it agreed or disagreed with 18 recommendations (23 percent).
SSA indicated the remaining two recommendations (3 percent) were the responsibility
of another Federal agency (see Table 1).




3
    See Appendix H.
Page 3 - The Commissioner


                     Table 1 – SSA FSTAP Recommendation Agreement

                                                                   Insufficient       Other
               Document                    Agree       Not Agree   Information       Agency      Total

Low Hanging Fruit/Quick Victories             5           1                                       6
Data Center Migration                        35           2              2                        39
Legacy Systems Conversion                     8                          6                        14
Re-imagining Social Security                  4           3             10                   2    19
TOTAL                                        52           6             18                   2    78
Percent of Total Recommendations            67%           8%            23%               3%
* Percents do not total to 100 due to rounding.

For the 52 recommendations for which there was agreement, meeting transcripts
indicated the Agency had implemented 11, planned to implement another 40, and would
not implement the remaining 1 (see Table 2).

      Table 2 - SSA Action for FSTAP Recommendations with which SSA Agreed

                                              Prior              Plan to           Will not
               Document                  Implementation        Implement          Implement      Total

Low Hanging Fruit/Quick Victories                 1                4                              5
                                                                                         4
Data Center Migration                             10               24                1            35
Legacy Systems Conversion                                          8                              8
Re-imagining Social Security                                       4                              4
TOTAL                                             11               40                 1           52


When we asked SSA management the status of the 40 recommendations the Agency
planned to implement, they directed us to the meeting minutes and transcripts—the
Agency provided no additional information. After we completed our fieldwork, SSA
announced on its public Website that it had terminated the FSTAP and would not
implement recommendations because of budget constraints.

The following paragraphs identify each FSTAP report and the information we gleaned
from reviewing the minutes and transcripts. The meeting transcripts detailed what
occurred in the meetings. However, there was limited information regarding the
Agency’s planned course of action in response to FSTAP recommendations. When we
requested confirmation of the recommendations SSA stated it had implemented as well
as a status on those it planned to implement, the Agency did not respond. To that end,
we were unable to substantiate that the 11 recommendations considered implemented



4
    For details, see Recommendation 24 in Appendix H.
Page 4 - The Commissioner


were, in fact, implemented. In January 2012, the Agency gave notice that it did not plan
to implement any outstanding FSTAP recommendations because of budget constraints.
For additional details, see Appendix H.

Low Hanging Fruit/Quick Victories

In November 2009, 5 SSA responded to all of FSTAP’s six recommendations. 6 This
report made recommendations based on observations by FSTAP that, if implemented,
would take few resources, were relatively easy to implement, and would provide some
immediate and significant pay-off. SSA agreed with five recommendations and
disagreed with one. For the five recommendations the Agency agreed with, SSA stated
it implemented one recommendation and planned to implement four. The
recommendations were as follows.

1. Eliminate the need to fax documents by implementing the ability to import gray-scale
   image files directly. This could be coupled with standard Personal Computer
   capability to grab screens from non-Electronic Folder applications. – Agency Agreed

2. If the Agency does not keep the original digital medical evidence record, it should
   keep it in preparation for more meaningful use of electronic health records within the
   disability process. – Agency Agreed

3. Revise the process for requesting and approving temporary systems access.
   Consider mitigating the security risks and implementing a process, which would
   ensure that an employee has security access at the temporary duty site upon their
   arrival. – Agency Agreed

4. Increase productivity at the appeals stage by allowing security access to the
   administrative law judge when they work from home. – Agency Agreed

5. If legally feasible, give claimants without private disability insurance priority in
   processing their claim because of financial hardship. -- Agency disagreed on advice
   of General Counsel

6. Review and implement processes, practices and procedures similar to those of the
   Internal Revenue Service that push citizens towards using and conducting all
   interactions and business transaction on the Internet. – Agency Agreed

Based on the transcripts, SSA indicated it had implemented the first recommendation.
However, SSA did not provide us a status on the remaining recommendations;
therefore, we could not conclude they had been implemented.


5
 FSTAP, Minutes, November 5 and 6, 2009; and Future Systems Technology Advisory Panel Fifth Panel
Meeting, November 5, 2009 (see Appendix J).
6
    FSTAP, Low Hanging Fruit/Quick Victories, September 23, 2009.
Page 5 - The Commissioner


Data Center Migration

In this report, 7 FSTAP made recommendations on the Agency’s plans to replace the
current National Computer Center (NCC). In May 2010, 8 the Agency provided a written
response to FSTAP agreeing with 35 of its 39 recommendations. SSA disagreed with
two recommendations and did not definitively state whether it agreed or disagreed with
the remaining two recommendations. Of the 35 recommendations with which the
Agency agreed, SSA stated it implemented 10, planned to implement 24, and it would
not implement 1.

Based on the meeting transcripts and the written response SSA provided FSTAP, SSA
stated it had already implemented the following 10 recommendations.

1. Develop a robust contingency plan that encompasses the potential for delays in the
   construction of the new facility and ensure that no existing programs or planned
   programs are impaired while the Agency is migrating from the current NCC to the
   National Support Center (NSC).
2. Have these recovery plans in place and be ready to execute them should any one of
   the possibilities occur.
3. Ensure that in the Agency’s business plan each of the information technology (IT)
   programs supports and delivers the capabilities the Agency plans to provide to the
   public and other stakeholders.
4. Identify a single technology executive in the Agency who is accountable for
   alignment and execution of all of the IT functions.
5. Plan for potential loss of key personnel and staff retirement by creating succession
   plans for a smooth transition without any gaps in knowledge.
6. The new data center location should take into account sources for power and
   telecommunications infrastructure.
7. The new data center location should take into account avoidance of I-95 and District
   of Columbia metro area traffic congestion.
8. The new data center location should take into account distance limitations
   associated with certain technology component.




7
    FSTAP, Data Center Migration, January 2010.
8
 FSTAP, Minutes, May 4, 2010 (see Appendix K); and SSA’s FSTAP’s Observations and Suggestions
Regarding the National Computer Center (NCC).
Page 6 - The Commissioner


9. Develop the data center with a clear link between the Agency’s business plan and
   growth drivers.
10. Work with key vendors to obtain nondisclosure briefings on their product and service
    roadmaps.
Below are examples of recommendations SSA stated it planned to implement.

1. To bridge the gap and minimize the risks until the new data center is operational;
   create a master project plan for the NCC Replacement Project. This plan should
   reflect critical path milestones needed to meet dependencies of all the other major IT
   initiatives underway.

2. To avoid mistakes other organizations have made in planning for data center
   replacement, consider having an extremely limited staff in the data center.

3. To strengthen overall planning, constantly oversee contract expirations and key
   vendor renegotiations that may impede the schedule, change resources or increase
   costs.

4. In decisionmaking for future technology, consider 5 years as the normal limit of
   usable forecasts.

The one recommendation SSA stated it agreed with but would not implement was to
align the overall strategic plan for the Agency with the different IT activities that are in-
process or contemplated. SSA stated it endeavors to align its IT activities with the
Agency strategic plan rather than the other way around.

Legacy Systems Conversion

This report 9 provided recommendations on the Agency’s plans to operate, maintain, and
replace many existing applications and databases supporting current business
processes. In August 2010, 10 the Agency responded to 8 of FSTAP’s
14 recommendations. SSA agreed with, and planned to implement, eight of the
recommendations. For the six remaining recommendations, SSA did not provide
sufficient information for us to determine whether the Agency agreed or disagreed with
the recommendations. Based on the meeting transcripts, below are the eight
recommendations with which SSA agreed and planned to implement.

1. Consider developing a comprehensive Agency-wide strategic systems development
   roadmap; the focus of which should be on critical strategic systems and applications
   that will have significant impact on SSA customers, the Agency’s business
   costs/results and/or impact on IT costs for operations and maintenance.
9
    FSTAP, Legacy Systems Conversion, May 2012.
10
  FSTAP, Minutes, August 3, 2010 (Appendix L); and FSTAP Eighth Panel Meeting, August 3, 2010,
pages 63-106.
Page 7 - The Commissioner


2. Give priority consideration to those systems that provide foundations for further
   development.
3. In the strategy, differentiate those systems that clearly must be updated, with those
   that should clearly remain in their current state, and have a process for evaluating
   and making decisions regarding those in the middle.
4. In the strategy, include fundamental architectural decisions regarding processing
   platforms, storage technologies, and programming languages.
5. In the strategy, include a high-level view of a realistic future state, along with a plan
   that outlines the major steps the Agency will take to achieve its vision.
6. Implement processes to ensure all new development activities comply with
   architectural standards and directions.
7. SSA should have a process to ensure its limited resources are invested to address
   the highest priorities and requirements to meet the Agency’s mission.
8. Processes should be implemented that will fully engage stakeholders to ensure
   strategic priorities are used to drive IT investment decisions.

Re-imagining Social Security

FSTAP developed this report 11 to assist SSA in determining future systems technology
options that would improve SSA’s ability to serve the American people in the next
5, 10, and 20 years. In August 2010, 12 the Agency responded to 12 of FSTAP’s
19 recommendations. SSA agreed with, and planned to implement,
four recommendations; disagreed with three recommendations; and identified
two recommendations as being the responsibility of another Federal agency. For the
remaining 10 recommendations, the Agency did not provide sufficient information for us
to determine whether it agreed or disagreed.

SSA agreed with, and planned to implement, the four recommendations below.

1. Move to an electronic customer self-service model with the goal of moving
   transactions to the Internet each year until 90 percent of the business with SSA
   takes place online.

2. Implement a program to automate the initial disability claim decision that would only
   require human review for denied claims.

3. Develop video kiosks to provide service to customers.


11
     FSTAP, Re-imagining Social Security, June 2010.
12
   FSTAP, Minutes, August 3, 2010; and FSTAP Eighth Panel Meeting, August 3, 2010, pages 115
through 196.
Page 8 - The Commissioner


4. Develop and make available training Web videos on how to find information and
   complete transactions on the Internet.

The Agency disagreed with the three recommendations below.

1. Develop a series of incentives to encourage and direct the public to use the
   electronic self-service model. SSA stated it had talked about offering incentives for
   years, but the Agency did not see how it could work in their environment.

2. Lead in developing a National Health Information Network, Health Information
   Exchanges and the adoption of electronic medical records. SSA stated that if it
   invests now, then the National Health Information Network that comes a few years
   from now may look different than what they designed for, and they would have used
   crucial resources too early.

3. Consider outsourcing some activities to third parties, such as libraries.

SSA identified the following two recommendations as being the responsibility of the
Department of the Treasury.

1. Develop a prototype and production systems to distribute benefits via cellular
   telephones.

2. Seek legislation that would require all employers file required documents
   electronically.

Cost of FSTAP

The current Administration is committed to delivering a Government that uses taxpayer
dollars in more effective and cost-effective ways. 13 The Agency spent over
$550,000 through FY 2011 (see Table 3 ) to operate FSTAP. During this period,
FSTAP issued 4 reports and made 78 recommendations.




13
     Office of Management and Budget, M-11-17, p.1, April 14, 2011.
Page 9 - The Commissioner


                                   Table 3- FSTAP COSTS 14 BY FY

                                     FY 2008        FY 2009         FY 2010    FY 2011     TOTAL
Payments:                                              $7,874        $9,025      $686      $17,585
Non-Federal Members
Payments:                                              $9,255        $9,415                $18,670
Federal Members
Payments:                            $28,670        $144,850        $114,836   $32,535    $320,891
Federal Staff
Travel Reimbursement:                                  $7,099        $5,453     $1,591     $14,143
Non-Federal
Travel Reimbursement:                                  $2,301        $1,890                 $4,191
Federal*
Travel Reimbursement:                      $66       $22,545        $20,198     $5,716     $48,525
Federal Staff
Other 15                                $463         $68,382         $42,668   $19,048    $130,562
Total                                 $29,199       $262,307        $203,485    $59,576    $554,566
* Dollar differences due to rounding.

FSTAP Recommendations and Cost Savings

The Agency did not track the implementation of FSTAP recommendations and any
related cost savings. Consequently, we could not assess whether SSA implemented
the recommendations and, if implemented, what cost savings or other benefits resulted.
SSA stated that because FSTAP was to advise the Agency by providing ideas and
diverse opinions, it did not track the Panel’s recommendations as it does the
recommendations from the Office of the Inspector General or the Government
Accountability Office. The Agency stated it benefited from the informal conversations
with FSTAP members as they shared experiences and knowledge about technology.

CONCLUSION AND RECOMMENDATION
The Commissioner of Social Security established FSTAP to provide independent advice
and recommendations on the future of systems technology and electronic services at
SSA 5 to 10 years into the future. The Agency spent over $550,000 and received
4 reports with 78 recommendations. Our review found that the Agency agreed with at
least 52 (67 percent) of the recommendations.



14
   The FSTAP charter provided an annual estimated operating cost of $848,970. The operating costs
include payments and travel reimbursement to panel members and SSA staff that directly support the
panel, as well as costs associated with meetings. Based on FACA, an advisory panel is limited to a
2-year existence. The most recent Panel’s term was from June 15, 2010 through June 15, 2012. After
the 2-year period, SSA could have renewed the charter.
15
     Other costs include costs incurred at the meeting locations.
Page 10 - The Commissioner


On January 9, 2012, the Commissioner terminated FSTAP “. . . due to budgetary
constraints.” The announcement stated, “. . . the agency does not have the resources
at this time to support the Panel or implement its recommendations.” The Agency did
not provide any evidence or indication that it had assessed the costs and benefits of the
recommendations it had agreed with before concluding it lacked the resources to
implement any of the recommendations. We believe the recommendations of this panel
of experts warrant SSA’s serious consideration.

Consistent with current Federal guidance that IT investments be transparent and
agencies make decisions that are more cost-effective, 16 we recommend SSA evaluate
the cost/benefit of FSTAP recommendations, especially those with which the Agency
had agreed, and implement those with the greatest potential to enable the Agency to
meet its future customer service demands more efficiently through the application of
modern technology.

AGENCY COMMENTS AND OIG RESPONSE
The Agency disagreed with our recommendation. In its comments, the Agency stated
“. . . it is clearly inappropriate to audit recommendations provided by an advisory
committee created by the Commissioner to solicit independent, external consideration
of IT issues.” See Appendix M for the Agency’s comments.

We do not agree with the Agency. The Inspector General Act of 1978 (the Act), 17
requires each Inspector General to conduct audits relating to the programs and
operations of their Agency. Further, the Inspector General is required to recommend
policies for, and to conduct, supervise, or coordinate other activities carried out or
financed by the Agency for the purposes of promoting economy and efficiency of, or
preventing and detecting fraud and abuse in such programs and operations. 18 The
Act 19 also authorizes the Inspector General to make such reports relating to the
administration of the programs and operations of the Agency, as are, in the Inspector
General’s judgment, necessary or desirable.

Consequently, we reiterate our recommendation that SSA evaluate the cost/benefit of
FSTAP recommendations, especially those with which the Agency had agreed, and
implement those with the greatest potential to enable the Agency to meet its future
customer service demands more efficiently and effectively through the application of
modern technology. With the Administration’s emphasis on cost-effectiveness and



16
 Vivek Kundra, 25 Point Implementation Plan to Reform Federal Information Technology,
December 9, 2010.
17
     Inspector General Act of 1978, as amended, U.S.C. 5, App.3, § 4(a)(1).
18
     Inspector General Act of 1978, as amended, U.S.C. 5, App.3, § 4(a)(3).
19
     Inspector General Act of 1978, as amended, U.S.C. 5, App.3, § 6(a)(2).
Page 11 - The Commissioner


further instilling a culture of transparency in federal spending, the Agency should use
taxpayer dollars in the most cost-effective way and be transparent on how these dollars
were used.

OTHER MATTERS
During our review, we noted an issue that SSA should consider for any future FACA
initiatives. FACA 20 states detailed minutes of all advisory committee meetings shall be
kept and contain a record of the persons present; a complete and accurate description
of matters discussed and conclusions reached; and copies of all reports received,
issued, or approved by the advisory committee.

Section 11 of the FACA, Availability of transcripts; agency proceedings, states “Except
where prohibited by contractual agreements entered into prior to the effective date of
this Act, agencies and advisory committees shall make available to any person, at
actual cost of duplication, copies of transcripts of agency proceedings or advisory
committee meetings.” 21

Collectively, the minutes and transcripts account for the proceedings of FSTAP
meetings. However, it appears that only the meeting minutes were available on the
Agency’s Website without any reference to the availability of the meeting transcripts.
Should the Agency consider using a FACA panel in the future, SSA should make the
meeting transcripts available to the public, as required by FACA.




                                                 Patrick P. O’Carroll, Jr.




20
     Pub. L. No. 92-463 § 10(c), 86 Stat. 774-775.
21
     Pub. L. No. 92-463 § 11(a), 86 Stat. 775.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Future Systems Technology Advisory Panel Members

APPENDIX C – Future Systems Technology Advisory Panel’s Charter

APPENDIX D – Low Hanging Fruit/Quick Victories Report

APPENDIX E – Data Center Migration Report

APPENDIX F – Legacy Systems Conversion Report

APPENDIX G – Re-imagining Social Security Report

APPENDIX H – Future Systems Technology Advisory Panel Recommendations

APPENDIX I – Scope and Methodology

APPENDIX J – Future Systems Technology Advisory Minutes November 5, 2009

APPENDIX K – Future Systems Technology Advisory Minutes May 4, 2009

APPENDIX L – Future Systems Technology Advisory Minutes August 3, 2009

APPENDIX M – Agency Comments

APPENDIX N – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CIO           Chief Information Officer
FACA          Federal Advisory Committee Act of 1972
FSTAP         Future Systems Technology Advisory Panel
FY            Fiscal Year
IT            Information Technology
NCC           National Computer Center
NSC           National Support Center
OIG           Office of the Inspector General
Pub. L. No.   Public Law Number
SSA           Social Security Administration
U.S.C.        United States Code
                                                                  Appendix B

Future Systems Technology Advisory Panel
Members
Alan Balutisa, Director of the North American Public Sector
Cisco Systems' Business Solutions Group

Andy Buckler, Special Advisor and Deputy Commissioner Services & Enforcement
Internal Revenue Services

Gregory Buoncontri, Executive Vice President and Chief Information Officer (CIO)
Pitney Bowes, Incorporated

Joan Conlin, Vice President of Customer Sales & Service
Land’s End

Dr. John Halamka, CIO, Harvard Medical School and CIO, Beth Israel Deaconess
Medical Center
Harvard University

Blaise Heltai, Founder
Genus2 Technology

Nancy LeaMond, Group Executive Officer for Social Impact
AARP

David Mcclure, Associate Administrator Citizen Services & Communications
General Services Administration

Maria R. Morris, Executive Vice President, Technology & Operations
MetLife, Incorporated

CJ Moses, Senior Manager
Amazon Web Services

Franklin S. Reeder, Founder
The Reeder Group

Steve Sullivan, Vice President, Global Technology Services
T. Rowe Price Group
                                                                          Appendix C

Future Systems Technology Advisory Panel’s
Charter
                        CHARTER
        FUTURE SYSTEMS TECHNOLOGY ADVISORY PANEL
 A. Official Designation: The Committee shall be known as the Future Systems
 Technology Advisory Panel (hereinafter referred to as "the Panel").

 B. Objective and Scope of Activities: The Panel, under the Federal Advisory
 Committee Act of 1972, as amended (hereinafter referred to as "the F ACA"), shall report
 to and provide the Commissioner of Social Security ("Commissioner"), independent
 advice and recommendations on the current status of SSA's systems technology, and a
 road map to assist the Agency in determining what future systems technologies may be
 developed to assist SSA in carrying out its statutory mission. Advice and
 recommendations can relate to SSA's systems in the areas of internet application;
 customer service; exchange of data between SSA, the Centers for Medicare and Medicaid
 Services, and/or the U.S. Department of Health and Human Services to implement the
 provisions of Patient Protection and Affordable Care Act; or any other area that would
 improve the Agency's ability to serve the American people.

 C. Description of Duties: The duties of the Panel are solely advisory.

 D. Panel Membership: The Panel shall be composed of approximately sixteen
 members, including: a) members of academia recognized as experts in the area of future
 computer systems technology; b) members of private industry familiar with the use of
 computer technology in the customer service, health care, financial and document
 management field; c) beneficiaries representing SSA's clientele; and d) SSA experts
 familiar with the Agency's policies and practices with regard to its mission.

 Panel members appointed by the Commissioner, who are not full time Federal officers or
 employees, shall serve as Special Government Employees under the authority of 5 U.S.C.
 § 3109. Panel members shall be appointed on an annual basis by the Commissioner of
 Social Security. Panel members shall be compensated for their work, including
 reimbursement for their travel expenses, in accordance with the FACA and its
 implementing regulations. The Panel members shall recommend the selection of a
 Chairperson from the total membership.

 E. Panel Meetings: The Panel shall meet at least quarterly at a date and time set at the
 call of the Designated Federal Officer ("OFO"), in consultation with the Chairperson.
 The Panel may meet at other times on an as needed basis, at a date and time approved by
 the OFO in consultation with the Chairperson. The OFO will be a full -time or permanent



                                            C-1
part-time Federal employee appointed by the Commissioner and shall be present at all
meetings. Six members of the Panel shall constitute a quorum, but a lesser number may
meet for information gathering and fact finding purposes only.

Meetings shall be open to the public except as determined otherwise in accordance with
the FACA and other applicable law. Due notice of all meetings shall be given to the
public. Meetings shall be conducted, and records of the proceedings kept, as required by
applicable laws and regulations. A web site will be maintained for the publication and
review of the Panel's documents.

All meetings will be held in accessible locations and reasonable accommodations will be
provided to the known needs of the members and the public in accordance with
applicable laws and regulations (i.e., interpreters for individuals with hearing
impairments and large print copies of materials for individuals with visual impairments).

The Panel, with SSA's approval, may establish subcommittees, as necessary and
consistent with its mission. 41 C.F.R. §102-3.35(b). These subcommittees shall operate
under the provisions of the F ACA and appropriate Federal regulations. Such
subcommittees shall not work independently of the chartered Panel, and shall report their
recommendations and advice to the Panel for full deliberation and discussion.
Subcommittees have no authority to make decisions on behalf of the chartered Panel, nor
can they report directly to the Agency or any Federal officers or employees not panel
members.

F. Agency Support: SSA shall provide support as deemed necessary for the
performance of the Panel's functions, and shall ensure compliance with the requirements
of the FACA.

G. Operating Costs: The annual estimated operating costs are $848,970 which includes
3.6 staff years of support.

H. Consultants: The Panel may also engage additional technical assistance from
experts and consultants skilled in computer systems and other future technologies.

I. Reports: The Panel will submit its recommendations to the Commissioner.
Preliminary recommendations will be provided within the first year and final
recommendations provided within two years after the Panel begins its work.

J. Duration: The Panel is anticipated to be continuing in nature.

K. Termination: This charter shall be in effect for two years from the date it is filed
with Congress. After this two-year period, the charter may be renewed in accordance
with the terms of the F ACA.




                                            C-2
Approved:
June 8, 2010                              Commissioner of Social Security

Jun 15, 2010
Congressional Filing Date
(Date Charter filed with the Committee on Ways and Means of the House of
Representatives and the Committee on Finance of the Senate)




                                        C-3
                                                                      Appendix D

Low Hanging Fruit/Quick Victories Report
        FUTURE SYSTEMS TECHNOLOGY ADVISORY PANEL (FSTAP)
                       REPORT REGARDING
               “LOW HANGING FRUIT/QUICK VICTORIES”
                        SEPTEMBER 23, 2009


During our initial briefings and site visits to various Social Security offices, the
panel members discussed and/or observed some existing practices or had some
suggestions that, if implemented, would take few resources, are relatively easy to
implement, and would provide some immediate and significant pay-off. We
labeled these ideas “low hanging fruit/quick victories”.

 The following are the panel’s thoughts and suggestions:

Electronic Enhancements:

We suggest two-technology enhancements to improve the electronic disability
claims process and the electronic folder (EF):

   1. Eliminate the need to fax documents by implementing the ability to import
      tiff files directly. This could be coupled with standard PC capability to grab
      screens from non-EF applications that do not allow downloads (i.e., green
      screen applications).

   2. Is the original digital (non-tiff) medical evidence record kept? If not, it
      should be kept in preparation for more meaningful use of electronic health
      records (EHR) within the disability process.

Systems Security Access:

   1. Revise the process for requesting and approving temporary systems
      access. Currently employees assigned to temporary duty sites are
      delayed in performing the work for which they are assigned because they
      do not have systems access at the temporary duty site. The downside to
      this is that productivity is lost. Consider mitigating the security risks and
      implementing a process, which would ensure that the employee has
      security access at the temporary duty site upon their arrival.

   2. Increase productivity at the appeals stage by allowing security access to
      the ALJs when they work from home.



                                          D-1
Disability Claims Processing:

If legally feasible, give claimants without private disability insurance priority in
processing their claim due to financial hardship.

DRIVE CITIZENS TO THE INTERNET

Review and implement processes, practices and procedures similar to those of
the Internal Revenue Service that “push” citizens towards using and conducting
all interactions and business transaction on the Web.




                                            D-2
                                                                              Appendix E

Data Center Migration Report
           FUTURE SYSTEMS TECHNOLOGY ADVISORY PANEL (FSTAP)
                       “DATA CENTER MIGRATION”
                                 Report
                              January 2010

Introduction
The Commissioner of Social Security asked the panel to conduct a high level review of
the agency’s plans to replace the current National Computer Center located on the main
campus in Baltimore, Maryland. He asked that the panel examine the physical, and
technological, considerations, as well as the planning assumptions for workload capacity
and risk management. This report is a result of briefings made to the FSTAP members
by SSA, GSA, and contractor personnel involved in the planning stage of the project; a
review of reports and discussions on anticipated workload trends; and deliberations of the
FSTAP subcommittee on the Data Center Migration, and the review and approval by the
members of the full FSTAP panel.

The panel makes the following recommendations based on their knowledge, expertise and
experience in the areas of information technology, large scale project management
planning and oversight and data center construction.

Commissioner’s Concerns with Existing NCC Architecture
The existing NCC is nearing 30 years in age. Although state of the art at the time, today this
facility is severely limited as to the amount of power that can be distributed to each floor.

SSA received Congressional funding ($500 million) to construct a new National
Computer Center (NCC) and in partnership with GSA, SSA is planning to construct it
and have it operational by 2014. However, with current workload growth rates SSA
projects it will run out of electrical distribution capacity in approximately 2012. Unless
SSA takes some remedial action, SSA will be unable to add more computer processing
capacity to handle their increasing workloads.

Commissioner’s Scope of Recommendations to be addressed by the FSTAP

1.     Other than building renovations to upgrade the existing NCC, what other
       recommendations and viable options can the panel offer as to how the agency can
       remain operational and efficiently support the increased IT demands during the
       period from 2012 until 2014? How can SSA bridge the gap and minimize the risks
       until the new building is operational?

2.     What recommendations can the panel offer so that SSA avoids mistakes other
       organizations have made in planning for a data center replacement? What are the


                                                E-1
      best strategies and options to make a computer center flexible to accommodate
      future technologies, new business processes, and workload growth?

3.    If the panel has additional recommendations they would like to make that are not
      included in items 1 and 2, the Commissioner asked that the panel provide them as
      well.


FSTAP’s Observations and Suggestions Regarding the NCC

1.    How can SSA bridge the gap and minimize the risks until the new building is
      operational - Recommendations to maintain operability and efficiency from 2012 -
      2014.
      • The development of robust contingency plans is essential. This contingency
         planning should encompass the potential for delays in the construction of the
         new facility and ensure that no existing programs or planned programs are
         impaired during the gap from 2012-2014, or while the agency is migrating
         from the current NCC to the new NCC. The agency should assess the possible
         pitfalls, delays and identify “worst-case scenarios” with the appropriate
         mitigation actions to be taken for each. The agency should have these recovery
         plans in place should any one of the possibilities occur and be ready to execute
         them.

      •   The adoption of increased virtual computing environments to save space and
          power are strongly encouraged.

      •   New applications and/or equipment should be installed in the Durham Center
          where possible.

      •   The agency should examine their applications portfolio with the goal of
          determining potential candidates for retirement or outsourcing.

      ● Create a master project plan for the data center initiative. This plan should
        reflect critical path milestones needed to meet dependencies of all the other
        major IT initiatives underway concurrent with the data center project.

2.    What recommendations can the panel offer so that SSA avoids mistakes other
      organizations have made in planning for data center replacement?
      Recommendations based on Best Practices – Panel Experience

      •   “Cloud computing” is useful for certain business applications, however, at this
          state we do not believe the agency should deploy any mission-critical
          applications to a public “cloud computing” platform.
      •   We encourage the agency to examine a Software-as-a-Service offering for its
          email needs.


                                             E-2
      •   Data Center Design and Construction
             a. Plan for hot/cold aisles and “in-row” water cooling.
             b. Eliminate disk storage in servers; storage area networks are more
                 robust and space efficient.
      •   “Green” Data Center Technologies
             a. These should be considered only where there are tangible energy
                 savings or substantial cost avoidance opportunities.
                     i. Consider the use of cheaper power sources that may be
                         available in some geographic locations.
                     ii. Utilize Plate heat exchangers to exploit more efficient use of
                         ambient air temperature.
      •   New Data Center Operating Concepts
           a. Consider having an extremely limited staff in the center. We
               recommend the provision of adequate space for emergency IT staff that
               may need to locate there in the event a disaster situation occurs.
           b. The location of the command center for the new NCC can be housed at a
               different geographic location. This can provide security and labor cost
               benefits. Remote access technologies are sufficiently mature for this to
               be undertaken.

3. Additional Recommendations for the New Data Center Initiative and IT
     • Strengthen overall plans

             a. Establish one organizational owner responsible for the execution of all
                 the IT activities associated with this project.
             b. Align the overall strategic plan for the agency with the different IT
                 activities that are in process or contemplated.
             c. The agency’s business plan should ensure that each of the IT programs
                 supports and delivers the capabilities the agency plans to provide to
                 the public and other stakeholders
             d. Identify a single technology executive in the agency who is
                 accountable for alignment and execution of all of the IT functions.
             e. Factor in plans to expand and increase capacity for growth, to
              i. process larger workloads, and advances in technology.
             f. Ensure continuity-of-funding remains once the project begins.
                 Determine how the agency will handle and plan for cost overruns.
             g. Align all government organizations involved in the new NCC
                 construction project activities with the agency’s overall business
                 goals. Determine and agree on who is responsible for each
                 aspect of the project, schedule, and outcome.
             h. Plan for potential loss of key personnel and staff retirement by
                 creating succession plans for a smooth transition without any
                 gaps in knowledge.
             i. Constantly oversee contract expirations and key vendor
                 renegotiations which may impede the schedule, change
                 resources or increase costs


                                             E-3
     •       Assessing costs and estimates
              a. Examine benchmark data to determine how the planned data center costs
                  compare to similar Tier 3, Level 4/5 security data centers elsewhere in
                  government. Also consider comparisons to comparable private sector
                  projects.

              b. Reconcile project cost differences between the Lockheed-Martin and
                 GSA studies. These should be normalized for:
                       i. Additional security measures
                      ii. “Buy American”
                     iii. Use of union labor sources
                     iv. LEEDS certification
              c. Strive to accelerate land acquisition to capitalize on current “buyers
                 market”.
              d The new location should take into account factors such as:
                     i. sources for power and telecommunications infrastructure
                    ii. Avoidance of I-95 and DC metro area traffic congestion
                   iii. Distance limitations associated with certain technology components
                              (e.g., synchronous disk mirroring, etc.)
                   iv. Power needs of the future may exceed the 13,200v feeder
                          capacity currently under consideration

3.       Long-Range Issues for Data Center Planning

         •    Selecting a viable number of enterprise Data Centers
                  a. Reduce the need for space by exporting some “compartmentalize-able”
                      applications. Buy a managed service application where possible,
                      instead of adding equipment capacity at the NCC. Data privacy is a
                      crucial factor to the applicability of this approach.
                  b. Develop the Data Center with a clear link between the agency’s
                      business plan and growth drivers.
                  c. A “hot-site” may still apply in multi-data center environments.
         •    Life span of Data Center
                         a. The lifecycle of the new NCC should encompass a horizon of
                             20+ years.
                         b. The upgrade or expansion of computer equipment should have as
                              one of its goals the reduction of floor space, and the use of this
                              space capacity for other purposes.

     •       The decision making consideration for future technology should consider 5 years as
             the normal limit of usable forecasts.
                 i.   The agency should work with key vendors to obtain non-disclosure
                      briefings on their product and service roadmaps.




                                                  E-4
                                                                        Appendix F

Legacy Systems Conversion Report
          FUTURE SYSTEMS TECHNOLOGY ADVISORY PANEL (FSTAP)
                 LEGACY SYSTEMS CONVERSION REPORT

                                        MAY 2010


Introduction

The Commissioner of Social Security asked the panel for recommendations on the
agency’s plans for operation, maintenance and replacement of the many existing
applications and databases supporting current business processes. Most of these
systems were independently developed and they are in need of modernization.

The Future Systems Technology Panel (FSTAP) engaged key SSA officials to get a
better understanding of the current systems landscape, as well as a picture of
planned investments. These discussions confirmed the Commissioner’s
observations that the agency has a wide array of systems, developed over a long
period, residing on different technical platforms, utilizing a wide range of
programming languages and technologies. In many instances, these systems do
not integrate well together, causing significant inefficiencies, both in business
operations and in the operations and maintenance of the IT application environment.

Observations

At the heart of SSA’s processing environment is the Master Data Access Method
(MADAM) system. MADAM is actually a series of databases, which house the core
account information for all SSA customers, and it is the data foundation that the
overall systems architecture is built. MADAM was originally built in the 1980s when
SSA converted its tape databases to DASD to enable online, direct access to its
master files. MADAM operates in a proprietary, COBOL/ALC-based environment.
As a result, the system’s capabilities fall short of those of a modern relational
database system. The agency is currently in the midst of a long-term strategic
migration to move from MADAM to a more modern, DB-2 based environment.

An industry group called the Computer and Communications Industry Association
submitted a report to the FSTAP panel suggesting that SSA pause the MADAM
migration to reconsider its technical architectural and design decisions, specifically
the decision to utilize DB-2 in a mainframe environment. The National Research
Board raised similar concerns in a study in 2007. While the FSTAP agrees that
other technical approaches might have been better choices, we do not concur with
their recommendation that the agency stop its current program. The agency’s


                                            F-1
design utilizes proven technology that is well accepted and heavily used in the
industry. Given the substantial investment and clear progress SSA has achieved in
the current program, the FSTAP does not recommend stopping to consider other
technical alternatives at this time.

However, the FSTAP has concerns about the long-term ability of the new
architecture to support modern, web-based technologies in the future. We
recommend that SSA consider bringing in outside expertise to conduct a review of
the data model and schemas, as well as the surrounding applications, to achieve the
maximum degree of openness and flexibility to allow the new data architecture to
support future service delivery requirements. In addition, the agency should develop
a plan to evolve access to those datasets necessary to meet the changing needs of
the agency and its customers.

In addition to the MADAM conversion, SSA has a number of other strategic
application development projects underway, including a redesign of the Disability
Processing system, the development of web-based applications to interact with the
public, and the agency’s vision for a “seamless” processing system.

Based on information SSA officials shared with the FSTAP about the agency’s
strategic objectives and plans, we believe that the projects currently underway seem
to align with the agency’s current strategic business priorities and plans.

Recommendations

The panel recommends that SSA consider developing a comprehensive agency-
wide strategic systems development roadmap. The focus of the roadmap should be
on critical strategic systems and applications that will have significant impact on SSA
customers, the agency’s business costs/results and/or impact on IT costs for
operations and maintenance. Give priority consideration to those systems, which
provide foundations for further development, such as the MADAM migration.

The strategy should differentiate those systems that clearly must be updated, with
those that should clearly remain in their current state, and a process for evaluating
and making decisions regarding those in the middle. In addition, the strategy should
include fundamental architectural decisions regarding processing platforms, storage
technologies, programming languages, etc. Once decisions are made, processes
should be implemented to ensure that all new development activities comply with
architectural standards and directions.

Resource requirements for both new development and ongoing operations and
maintenance should be factored into the planning of the roadmap. The strategy
should include a high-level view of a realistic future state, along with a plan that
outlines the major steps the agency will take to achieve its vision.




                                            F-2
The panel believes it is critical that appropriate stakeholders are fully engaged in
formulating the strategic systems development roadmap. Stakeholders include the
IT community and key business leaders throughout the agency. Engaging business
stakeholders is essential to ensure that the systems migration strategy is aligned to
business priorities and plans. Business buy-in is also critical to maintaining the
discipline to ensure that investment decisions are driven by strategic priorities over
both the short and long term. Both IT and business stakeholders should be brought
together in a comprehensive governance process to guarantee progress toward the
agency’s strategic systems development vision.

Managing the demand for IT services is essential to the long-term success of the
strategy. SSA should have a process to ensure that its limited resources are
invested to address the highest priorities and requirements to meet the mission of
the agency. Business stakeholders must understand and support the overall
strategy and agree to focus their service and development requests on those
activities that will advance the organization toward realization of its strategic vision.
Processes should be implemented that will fully engage stakeholders to ensure that
strategic priorities are used to drive IT investment decisions.

Final Note

At the November FSTAP meeting, the CIO shared some of the initiatives that he has
undertaken since arriving at SSA. The FSTAP is pleased to hear that work is well
underway to implement a number of our recommendations. In addition, the Panel
has volunteered to assist the CIO develop and implement its strategic systems
development vision and roadmap.




                                             F-3
                                    Appendix G

Re-imagining Social Security Report

           Re-imagining Social Security
    Future Systems Technology Advisory Panel
                Report, June 2010




                      G-1
Introduction

 The Commissioner of Social Security asked the panel for advice and guidance to assist the
 agency in determining future systems technology options that would improve the agency's
 ability to serve the American people in the next 5, 10 and 20 years. Based on the
 Commissioner's request this report will paint a picture of how people could interact with SSA
 based on available future technology within those timeframes.

 The panel based the following report on discussions with Social Security Administration
 officials, an analysis of the data and information they provided as well as independent research
 and information gathered by the panel. This report is an overview, subsequent panel reports on
 the Disability Backlog/Health Information Technology (HIT) and, Privacy, Authentication and
 Fraud Detection will provide in depth recommendations specific to those topics.

This document consists of three sections. The first presents recommendations based on our
research, deliberations, site visits and presentations by SSA personnel. The second section
presents an analysis of some of the workload and investment data provided by the agency and the
third section is a scenario for how citizens might interact with the agency if SSA implements the
panel's recommendations.

 Recommendations:
    Move to an electronic customer self-service model with the goal of moving
    transactions to the Internet each year until 90% of the business with SSA
    takes place online.

    • Provide other channels for:

              Complex transactions that are not suited to online execution

              Those who cannot or will not use technology
 Given the projected workload increases due to the number of individuals retiring over the next
 two decades and other demographic trends, electronic self-service appears to be the only solution
 that will enable SSA to process future transaction volumes. As evidenced by the FCC's policy
 proposal to promote and expand broadband connectivity and speeds we anticipate that the vast
 majority of citizens interacting with SSA will be able to do so through the Internet.

    • Develop a series of incentives to encourage and direct the public to utilize the
      electronic self-service model.

    Establish SSA policy to allow offering incentives (i.e., less wait time, quicker decision, etc.)
    to encourage the public to interact with SSA via online services.


                                                                                             2

                                             G-2
   •    Lead in developing a National Health Information Network, Health Information
        Exchanges and the adoption of electronic medical records. Work to establish
        industry standards for health information data security, and the security of
        personally identifiable information.

    • Encourage and subsidize the adoption of electronic medical records with
      connections to disability examiners in the states and to SSA.

One of the agency's goals is to reduce the disability claims backlog and prevent the backlog
from recurring. Based on discussions with SSA personnel we learned that when disability
claims are denied and then appealed a great deal of study and human judgment is required
and that human judgment is difficult to automate. Often times the claimant fails to identify all
of their medical conditions. Sometimes they do not recall or do not supply all of the medical
information needed resulting in an initial denial. A National Health Information Network
would provide SSA personnel and State Disability Determination Services access to all of the
claimant's medical records for review and evaluation so that the correct decision can be made
at the initial stage. Therefore, as experiments have shown, electronic medical records can
dramatically reduce the time on the front end required to make the initial determination and
ultimately reduce the number of appeals. Promoting and implementing a National Health
Information Network that includes electronic medical record will facilitate timely receipt of
all the medical records upfront so that the right decision can be made at the earliest stages of
the disability claims process.

• Implement a program to automate the initial disability claim decision that would
  only require human review for denied claims.

The agency is experimenting with the development of such a program. The Panel learned
that at least one large Insurance company leverages information on all claims for expedited
and automated decisions with claim submissions. The panel recommends continued
information sharing with the private sector to explore process improvement in making
disability clain1s decisions without compromising the outcome or quality. Implementing such
a program should be a high priority as it will help reduce the cycle time for disability
decisions and reduce the backlog of claims.

• The most common tools people will use to access the internet in the future will be the
  Smart phone and mobile devices. These tools are predicted to replace the PC.
  Therefore, in designing online applications SSA should position themselves to support
  mobile devices and be prepared to convert internet applications to these platforms
  while simultaneously maintaining the current platforms for the PC.

Smart phones and devices like the iPad are replacing PCs for convenient internet access
because of the mobility they provide. While these devices have a Web browser allowing the

                                                                                           3

                                            G-3
user to reach the SSA website and conduct transactions, dedicated applications for smart
phones provide more incentives for use as they recognize the interface advantages and
limitations of smart devices.

 • Develop a prototype and then production systems to distribute benefits via cell
   phones.

 The developing world is ahead of industrial economies in using cell phones as payment
 devices because many people do not have bank accounts or credit cards. Japan developed a
 cell phone payment system some time ago. In the U.S. there are a number of efforts
 underway to utilize cell phones for payments and receipts. Some of these approaches use a
 smart chip, a sticker with an RFID tag, or a small credit card reader. There is competition
 between systems that utilize the credit card infrastructure or those that create their own
 payments system. For example there is an iPhone application that lets two people "bump"
 their phones and transfer funds via PayPal accounts. As more merchants are able to accept
 credit card payments, the public will increasingly choose this approach over debit and credit
 cards and cash. SSA should be able to distribute benefits to individuals who prefer to use
 their cell phones.

 • Establish electronic service delivery as a strategic goal for all employees.

       Create a publicity campaign to inform employees about the development
        and implementation of an electronic self-service model. Explain how they
        will benefit from the electronic self-service model and how its
        implementation will help the agency achieve its goals.

       Hire employees at all levels with the desire, aptitude and ability to complete
        work assignments electronically.

 The panel suggests tying electronic service delivery to the specific business process.
 Determine which method is best suited for each transaction, i.e., electronic, telephone,
 face-to-face. Clarify and explain the agency's rationale for steering interactions via the
 various methods to ensure that employees have a clear understanding of how the agency's
 strategic goals will better assist them in performing their work. Promote buy-in by involving
 employees at all levels, and stress how their performance will assist the agency in achieving
 its goal while improving the business process. The panel learned through meetings with SSA
 personnel that there is a resistance within the agency to accept the electronic self-service
 model; many employees feel that person-to-person contact is the best way to serve the public.
 While there are many advantages to face-to-face interaction, the agency cannot afford to
 continue this approach given the increased workloads.


                                                                                           4



                                            G-4
•     Seek legislation that would require all employers to file required documents
      electronically.

    The panel recommends getting legislation passed as quickly as possible with a deadline that
    would require employers to file documents electronically. In addition, if feasible, SSA could
    provide the stat1-up costs as an incentive and buy-in.

    • Lead a government-wide study group to discuss options with other agencies to pilot
      a single government service center in each region for individuals who need face-to
      face service across from different agencies. (For example, IRS, SSA, INS, State
      Social Services, etc.)

               Consider contracting-out providing the services by third parties vs. each
                agency. Look at the model in some state DMVs.

The panel realizes that there will always be some complex transactions and some clients who
need to interact with an SSA employee. In order to provide better service across all Federal
agencies and to consolidate real estate, we suggest looking into setting up government
service centers for "one stop shopping."

• Some short-term suggestions:
               Consider outsourcing some activities to third parties, e.g. libraries.

       In order to reallocate resources from physical offices to an electronic self-service model, the
       agency should consider possible third pa11ies who could provide some of the services
       that currently require a visit to an SSA office.

               Develop and implement a video capability for disability claimants at field
                offices and those with cameras on their PCs.

       Explore expanding the use of video conferencing for disability hearings. Further
       leveraging video conferencing capabilities will help reduce the disability backlog at the
       hearing level while reducing cost. In addition, video conferencing will promote selective
       hiring across geographic regions and consistency across the country. An increasing
       number of computers and other devices have cameras, which would allow examiners and
       others widespread video communication possibilities as well.

               Develop video kiosks to provide service to customers

       Video kiosks are another avenue to move customers to an electronic self-service
       platform. Kiosks can be set up in libraries, malls, grocery stores, and community centers
       to accommodate those that do not have computers in their homes. In addition, install


                                                                                               5


                                                G-5
       self-service stations at field offices where people can complete their business with SSA
       online without having to interact with SSA personnel.

              Develop and make available training web videos on how to find
               information and complete transactions on the Internet.

       Instructional videos will help individuals learn how to interact with the
       agency electronically.

Predictions about future technology:

Blaise Heltai, Genus2 Technology, February 2010, predictions about the following future
technologies helped frame the recommendations above.

   •   Smart Phones with biometric identification (2012)

   •   Use of consolidated email/social networking/1M services reaches 300 million users
       (2013)

   •   A national ID card issued by SSA (2015)

   •   EMR adoption reaches 70% (2016)

   •   Government reorganization plan centralizes all services delivered to citizens
       through consolidated service centers (2019)

   •   Life vault gives every user on the planet 100 Gb of information on their lives
       including medical records (2020)



Data Analysis
Analysis of Data on the Impact of SSA's Investments in Information Technology




                                                                                          6




                                           G-6
                                The contribution of IT to SSA
                                  IT Capital and Work Years
                                    (Capital in 1985 dollars)
                                            Figure 1
Figure 1 shows a large investment in IT from 1985 to 1990 and a reduction in personnel work
years. After 1990 IT investment shows high variability while work years produced by the
agency remains fairly constant. Given increasing workloads, there is evidence that the
combination of IT and human capital have made it possible to handle an increasing workload
with the same human effort. (This information is based on the data SSA provided.)




                                                                                       7


                                          G-7
                                  IT Capital and Transactions
                                    (Capital in 1985 dollars)
                                             Figure 2
Figure 2 provides further evidence of the productivity from investing in information technology.
A combination of routine transactions (not associated with disability determination) shows a
steady upward trend while the number of workers at SSA has decreased during the period.
(This information is based on the data SSA provided.)




                                                                                         8



                                           G-8
                                     Returns on IT Labor for
                                       Various Transactions
                                              Figure 3
Figure 3 shows an analysis of returns from SSA's investment in infom1ation technology workers
(IT Labor) for select transactions. IT labor develops the applications and systems that the agency
uses to accomplish its mission. The data suggest that an investment in technology and systems
as measured by IT labor has shown a positive return for SSA. (This information is based on the
data SSA provided.)

Data Analysis: the Electronic Medical Records Experiments
       The Massachusetts' DDS MEGAHIT Experience with Beth Israel Deaconess
       Medical Center

           - Processing Times - as of 07/30/2009

           - DDS overall average case processing time is 86.3 days

           - DDS average processing time for HIT cases is:

                       63.3 days for unfavorable decisions/denials from DDS assignment to
                       the adjudicator

                   •   34.5 days for allowances from DDS assignment to the adjudicator


                                                                                          9

                                           G-9
• The Virginia DDS MEGAHIT Experience with MedVirginia

            ▬ Processing Times - as of 07/29/2009

            ▬ DDS overall average case processing time is approximately 81 days for Title II
              and 87 days for Title XVI claims

            ▬ DDS average processing time for HIT cases is:

                   •   51 days from DDS receipt of the case

                   •   25 days from DDS assignment to the adjudicator

These data show that electronic medical records can dramatically reduce the processing time for
disability claims. Since not all data are yet available electronically, electronic medical records
and a National Health Information Network have great potential for reducing disability claim
processing times and improving service to SSA clients. (This i n formation is based on the data
SSA provided.)

   •   Our conclusion is that information technology offers the best hope for providing
       outstanding service to SSA constituents from "baby boomer" retirees to
       applicants for disability.

   •   Forecasting future technology trends, we believe that the SSA should move to the
       Internet for as many interactions with constituents and within the Agency as
       possible.

 Scenario
The scenario illustrates how the public might interact with the agency if SSA implements
the panel's recommendations.




                                                                                         10


                                           G-10
                                At Birth
•   Mary is born
     - The hospital automatically creates an electronic birth
        record by extracting data from both parents' records
     - The hospital's actions establish a permanent Electronic Medical
        Record (EMR) for Mary
•   Enumeration at birth electronic message from the hospital- to SSA
    with data and biometrics- 95%
•   SSA establishes an account for Mary and sends parents login
    and temporary password
•   Parents applying online at a later time
     - Verification by electronic message from state bureau of vital statistics-
        5%




                              Employment
• Mary gets a job
• Employer verifies SSN via eVerify- 100%
• Employer reports her wages each year or quarter
    - Employer withholds FICA
    - 100% electronic including small business
• Mary accesses her SSA account at her discretion
  to check earnings and to use benefits calculator
    - SSA does not need to send annual statements any longer




                                                                                   11




                                                    G-11
                      Marriage
• Mary finally gets married

   • To change a name a married person:
   - Accesses her online SSA account 90%
   - Calls the SSA 800 number- 5%
   - Visits a field office and uses the self-service kiosk -
     5%
• Mary switches from using her PC to access SSA
  to a smart phone




     Mary becomes a widow
• Mary access www.socialsecurity.gov to find out
  about her and their children's eligibility for survivor
  benefits
• SSA receives death notice from funeral director or
  state bureau of vital statistics electronically
• SSA sends Mary an email with explanation of
  benefits
• SSA begins to deposit new benefits electronically in
  her bank account




                                                               12


                                      G-12
                              Disability
•   Mary becomes disabled and applies for disability benefits online-90%
         calls the 800 number- 5%
        visits a government service center -5%
•   SSA gathers required documents electronically using the National Health
     Information Network
     - Network consolidates records from Health Information Exchanges
     - HIEs rely on electronic medical records
     - Interfaces to other systems from insurance companies
•   Mary initiates a Google Wave meeting with SSA to discuss her disability
•   SSA has been a lead agency in setting standards for Health IT and
    subsidizing the creation of the National Health Information Network




                  Alternative online
                        filing
• Mary downloads apps to her iPhone to file for
  disability
• The apps guide her through the application
    - They contact her health care providers
      electronically and arrange for electronic
      submission of medical and other documents to be
     sent in with the claim




                                                                              13



                                                  G-13
        Disability determination
• SSA examiner uses Mary's information along
  with database of prior determinations
• Decision support tools provide
  recommendations
   -Statistical analysis and AI programs gather
     information on similar cases and their outcomes
     and report to examiner
   - 90% of cases are determined automatically
       • Positive decisions are not reviewed
       • SSA staff reviews rejected claims




                 In case of an appeal

• The first hearing is with an ALJ the claimant and an attorney
  using Google Wave

• Face-to-face hearings occur depending on the case backlog
  and the outcome of the Wave conference

• A scheduling system assigns cases in backlogged areas to
  areas that are more lightly loaded for video hearings

• Decision support for the administrative law judge
  - Statistical and AI programs search the database of appeals
    to report on similar cases and their outcomes




                                                                  14



                                         G-14
              Going back to
                  work
• Mary recovers sufficiently to return to work
• Employer and Mary notify SSA electronically




                 Inheritance
• Mary receives an inheritance from her favorite
  Aunt
• Mary goes to a financial planner
• With Mary's authorization, the financial
  planner accesses Mary's SSA account
  electronically
  -Includes SSA benefits in developing her estate and
    retirement plans




                                                        15

                                G-15
              Widow's benefits
• Mary turns 60
• Applies electronically as a widow
• Receives monthly cash payments for surviving
  spouse age 60 and over




              Retirement
• Mary retires filing for benefits online – 90%
   • Or via the 800 number - 5%
   • Or at a government service center- 5%




                                                  16



                                  G-16
                  Medicare

• SSA notifies Mary electronically she should
  sign up for Medicare
• Mary learns online about different options
• Mary selects her options and notifies SSA
  electronically - 90%
  - Or via another channel- 10%




                                                17



                                  G-17
                                                                       Appendix H

Future Systems Technology Advisory Panel
Recommendations
This appendix lists the 78 Future Systems Technology Advisory Panel (FSTAP)
recommendations based on the 4 documents/reports created by the Panel and
presented to the Social Security Administration (SSA).

   1.   Low Hanging Fruit/Quick Victories    6 recommendations
   2.   Data Center Migration                39 recommendations
   3.   Legacy Systems Conversion            14 recommendations
   4.   Re-imagining Social Security         19 recommendations

We identified the Agency response by reviewing the FSTAP meeting minutes and
transcripts. We categorized the Agency response as:

Agree                      SSA stated that it agreed; or stated that it was already taking
                           action or will take action.

Not Agree                  SSA stated that it did not agree; or did not explicitly state any
                           type of agreement but instead stated that it would not
                           implement the recommendation.

Other Agency               SSA identified another Agency as the party responsible for
                           the action.

Insufficient Information   SSA did not provide sufficient information for us to determine
                           whether the Agency agreed or disagreed with the FSTAP
                           recommendation.

Table 2 in the report shows the overview of the Agency’s agreement with the FSTAP
recommendations.

We identified the Agency actions by reviewing the meeting minutes and transcripts, as
well as recent Audit reports. For the recommendations with which the Agency agreed,
we categorized the Agency action as follows.

Prior Implementation            By the time the Agency responded to the FSTAP, the
                                Agency stated they had already implemented the
                                recommendation.




                                            H-1
Plan to Implement               The Agency stated it planned to implement the
                                recommendation. This includes recommendations that
                                the Agency agreed to but did not provide specifics on
                                their plan to implement.

Will not Implement              Although the Agency stated it agreed, they did not plan
                                to implement the recommendation.

Table 3 in the report shows the overview of the Agency’s action on the FSTAP
recommendations.

Low Hanging Fruit/Quick Victories Report

Electronic Enhancements to Improve the Electronic Disability Claims Process
and the Electronic Folder
1. Eliminate the need to fax documents by implementing the ability to import gray-scale
   image files directly. This could be coupled with standard Personal Computer
   capability to grab screens from non-Electronic Folder applications.
   Agency Response:        Agree

   Agency Action:          Prior Implementation

   OIG did not confirm that this recommendation was implemented.

2. If the Agency does not keep the original digital medical evidence record, it should
   keep it in preparation for a more meaningful use of electronic health records in the
   disability process.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

System Security Access
3. Revise the process for requesting and approving temporary systems access.
   Consider mitigating the security risks and implementing a process, which would
   ensure that an employee has security access at the temporary duty site upon their
   arrival.
   Agency Response:        Agree

   Agency Action:          Plan to Implement




                                           H-2
4. Increase productivity at the appeals stage by allowing security access to the
   administrative law judge when they work from home.
   Agency Response:         Agree
   Agency Action:           Plan to Implement

Other
5. Disability Claims Processing: If legally feasible, give claimants without private
   disability insurance priority in processing their claim because of financial hardship.
   Agency Response:         Not Agree

   Agency Action:           Will not implement

   SSA stated that General Counsel does not feel it is legally feasible to implement this
   recommendation.

6. Drive Citizens to the Internet: Review and implement processes, practices and
   procedures similar to those of the Internal Revenue Service that push citizens
   toward using and conducting all interactions and business transaction on the
   Internet.
   Agency Response:         Agree

   Agency Action:           Plan to Implement

Data Center Migration Report

Bridge the Gap and Minimize the Risks until the New Building is Operational
7. Develop a robust contingency plan that encompasses the potential for delays in the
   construction of the new facility and ensure that no existing programs or planned
   programs are impaired while the Agency is migrating from the current National
   Computer Center (NCC) to the National Support Center (NSC).
   Agency Response:         Agree

   Agency Action:           Prior Implementation

   OIG did not confirm that this recommendation was implemented.

8. Assess the possible pitfalls and delays and identify worst-case scenarios with the
   appropriate mitigation actions to be taken for each.
   Agency Response:         Insufficient Information

   Agency Action:           Insufficient Information




                                            H-3
9. Have these recovery plans in place and be ready to execute them should any one of
   the possibilities occur.
   Agency Response:        Agree

   Agency Action:          Prior Implementation

   OIG did not confirm that this recommendation was implemented.

10. Adopt increased virtual computing environments to save space and power.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

11. Install new applications and/or equipment in the Second Support Center where
    possible.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

12. Examine applications portfolios with the goal of determining potential candidates for
    retirement or outsourcing.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

13. Create a master project plan for the NCC Replacement Project. This plan should
    reflect critical path milestones needed to meet dependencies of all the other major,
    concurrent information technology (IT) initiatives underway.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

To Avoid Mistakes Other Organizations Have Made in Planning for Data Center
Replacement
14. Cloud computing is useful for certain business applications; however, at this state
    the Agency should not deploy any mission-critical applications to a public cloud
    computing platform.
   Agency Response:        Agree

   Agency Action:          Plan to Implement




                                           H-4
15. Examine a Software-as-a-Service offering for its electronic mail needs.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

16. For data center design and construction, plan for hot/cold aisles and in-row water
    cooling; and eliminate disk storage in servers.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

17. Consider green data center technologies only where there are tangible energy
    savings or substantial cost avoidance opportunities.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

18. Consider using less-expensive power sources that may be available in some
    geographic locations.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

19. Use plate heat exchangers to exploit more efficient use of ambient air temperature.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

20. Consider having an extremely limited staff in the data center.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

21. Provide adequate space for emergency IT staff that may need to locate at the data
    center in the event a disaster situation occurs.
   Agency Response:        Agree

   Agency Action:          Plan to Implement




                                           H-5
22. House the command center for the NSC at a different geographic location.
   Agency Response:          Agree

   Agency Action:            Plan to Implement

Strengthen Overall Plans
23. Establish one organizational owner responsible for the execution of all IT activities
    associated with this project.
   Agency Response:          Insufficient Information

   Agency Action:            Insufficient Information

24. Align the overall strategic plan for the Agency with the different IT activities that are
    in process or contemplated.
   Agency Response:          Agree

   Agency Action:            Will not implement

   SSA stated it endeavor to align its IT activities with the Agency strategic plan rather
   than the other way around.

25. Ensure that in the Agency’s business plan each of the IT programs supports and
    delivers the capabilities the Agency plans to provide to the public and other
    stakeholders.
   Agency Response:          Agree

   Agency Action:            Prior Implementation

   OIG did not confirm that this recommendation was implemented.

26. Identify a single technology executive in the Agency who is accountable for
    alignment and execution of all of the IT functions.
   Agency Response:          Agree

   Agency Action:            Prior Implementation

   OIG did not confirm that this recommendation was implemented.




                                             H-6
27. Factor in plans to expand and increase capacity for growth, process larger
    workloads, and use advances in technology.
   Agency Response:         Agree

   Agency Action:           Plan to Implement

28. Ensure continuity-of-funding remains once the project begins. Determine how the
    Agency will handle and plan for cost overruns.
   Agency Response:         Agree

   Agency Action:           Plan to Implement

29. Align all Federal organizations involved in the NSC construction project activities
    with the Agency’s overall business goals. Determine and agree on who is
    responsible for each aspect of the project, schedule, and outcome.
   Agency Response:         Agree

   Agency Action:           Plan to Implement

30. Plan for potential loss of key personnel and staff retirement by creating succession
    plans for a smooth transition without any gaps in knowledge.
   Agency Response:         Agree

   Agency Action:           Prior Implementation

   OIG did not confirm that this recommendation was implemented.

31. Constantly oversee contract expirations and key vendor renegotiations that may
    impede the schedule, change resources, or increase costs.
   Agency Response:         Agree

   Agency Action:           Plan to Implement




                                            H-7
For The New Data Center Initiative and IT, Assess Costs and Estimates
32. Examine benchmark data to determine how the planned data center costs compare
    to similar Tier 3, 1 Level 4/5 security data centers elsewhere in Government. Also,
    consider comparisons to comparable private sector projects.
    Agency Response:             Agree

    Agency Action:               Plan to Implement

33. Reconcile project cost differences between the Lockheed-Martin and General
    Services Administration studies. These should be normalized for (1) Additional
    security measures; (2) Buy American; (3) Use of union labor sources; and (4) United
    States Green Building Council Leadership in Energy and Environmental Design
    Silver level for green building certification.
    Agency Response:             Not Agree

    Agency Action:               Will not implement

    SSA stated that the studies address different scopes and purposes and that
    dissecting these costs based on stated data would not be effective.

34. Strive to accelerate land acquisition to capitalize on current “buyers market.”
    Agency Response:             Agree

    Agency Action:               Plan to Implement

35. The new location should take into account sources for power and
    telecommunications infrastructure.
    Agency Response:             Agree

    Agency Action:               Prior Implementation

    OIG did not confirm that this recommendation was implemented.




1
 Tier III facilities have redundant capacity that allows for any planned site infrastructure maintenance and
activities without disrupting the computer hardware operation. All IT equipment is dual powered and has
multiple independent distribution paths.


                                                    H-8
36. The new location should take into account avoidance of I-95 and District of Columbia
    metro area traffic congestion.
    Agency Response:           Agree

    Agency Action:             Prior Implementation

    OIG did not confirm that this recommendation was implemented.

37. The new location should take into account distance limitations associated with
    certain technology component.
    Agency Response:           Agree

    Agency Action:             Prior Implementation

    OIG did not confirm that this recommendation was implemented.

38. The new location should take into account that power needs of the future may
    exceed the 13,200 volt feeder capacity currently under consideration.
    Agency Response:           Not Agree

    Agency Action:             Not Implement

Other
39. Reduce the need for data center space by exporting some compartmentalize-able 2
    applications.
    Agency Response:           Agree

    Agency Action:             Plan to Implement

40. Buy a managed service application where possible, instead of adding equipment
    capacity at the NCC. Data privacy is a crucial factor to the applicability of this
    approach.
    Agency Response:           Agree

    Agency Action:             Plan to Implement




2
 The term compartmentalize-able is from the FSTAP documentation. It refers to applications that are
readily compartmentalized.


                                                 H-9
41. Develop the data center with a clear link between the Agency’s business plan and
    growth drivers.
   Agency Response:        Agree

   Agency Action:          Prior Implementation

   OIG did not confirm that this recommendation was implemented.

42. The NSC’s lifecycle should encompass a horizon of 20+ years.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

43. The upgrade or expansion of computer equipment should have as one of its goals
    the reduction of floor space and the use of this space capacity for other purposes.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

44. In decision-making for future technology, consider 5 years as the normal limit of
    usable forecasts.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

45. Work with key vendors to obtain nondisclosure briefings on their product and service
    roadmaps.
   Agency Response:        Agree

   Agency Action:          Prior Implementation

   OIG did not confirm that this recommendation was implemented.

Legacy Systems Conversion Report

46. Consider bringing in outside expertise to review the data model and schemas as well
    as surrounding applications to achieve maximum degree of openness and flexibility
    to all the new data architecture to support future service delivery requirements.
   Agency Response:        Insufficient Information

   Agency Action:          Insufficient Information



                                           H-10
47. Develop a plan to evolve access to those datasets necessary to meet the changing
    needs of the Agency and its customers.
   Agency Response:         Insufficient Information

   Agency Action:           Insufficient Information

Comprehensive Agency-wide Strategic Systems Development Roadmap
48. Consider developing a comprehensive Agency-wide strategic systems development
    roadmap; the focus of which should be on critical strategic systems and applications
    that will have significant impact on SSA customers, the Agency’s business
    costs/results and/or impact on IT costs for operations and maintenance.
   Agency Response:         Agree

   Agency Action:           Plan to Implement

49. Give priority consideration to those systems, that provide foundations for further
    development.
   Agency Response:         Agree

   Agency Action:           Plan to Implement

50. In the strategy, differentiate those systems that clearly must be updated, with those
    that should clearly remain in their current state, and have a process for evaluating
    and making decisions regarding those in the middle.
   Agency Response:         Agree

   Agency Action:           Plan to Implement

51. In the strategy, include fundamental architectural decisions regarding processing
    platforms, storage technologies, and programming languages.
   Agency Response:         Agree

   Agency Action:           Plan to Implement

52. Factor the resource requirements for both new development and ongoing operations
    and maintenance into the planning of the roadmap.
   Agency Response:         Insufficient Information

   Agency Action:           Insufficient Information




                                           H-11
53. Include a high-level view of a realistic future state, along with a plan that outlines the
    major steps the Agency will take to achieve its vision.
   Agency Response:          Agree

   Agency Action:            Plan to Implement

54. Implement processes to ensure all new development activities comply with
    architectural standards and directions.
   Agency Response:          Agree

   Agency Action:            Plan to Implement


Other
55. Fully engage appropriate stakeholders in formulating the strategic systems
    development roadmap. Stakeholders include the IT community and key business
    leaders throughout the Agency.
   Agency Response:          Insufficient Information

   Agency Action:            Insufficient Information

56. Both IT and business stakeholders should be brought together in comprehensive
    governance process to guarantee progress toward the Agency’s strategic systems
    development vision.
   Agency Response:          Insufficient Information

   Agency Action:            Insufficient Information

   The Agency did not respond to this recommendation in either the meeting minutes or
   the transcript.

Manage the Demand for IT Services
57. SSA should have a process to ensure its limited resources are invested to address
    the highest priorities and requirements to meet the Agency’s mission.
   Agency Response:          Agree

   Agency Action:            Plan to Implement




                                             H-12
58. Business stakeholders must understand and support the overall strategy and agree
    to focus their service and development requests on those activities that will advance
    the organization toward realization of its strategic vision.
   Agency Response:        Insufficient Information

   Agency Action:          Insufficient Information

59. Processes should be implemented that will fully engage stakeholders to ensure
    strategic priorities are used to drive IT investment decisions.
   Agency Response:        Agree

   Agency Action:          Plan to Implement

Re-Imagining Social Security Report

60. Move to an electronic customer self-service model with the goal of moving
    transactions to the Internet each year until 90 percent of the business with SSA
    takes place online.

   Agency Response:        Agree

   Agency Action:          Plan to Implement

61. Provide other channels for complex transactions that are not suited to online
    execution and those who cannot or will not use technology.

   Agency Response:        Insufficient Information

   Agency Action:          Insufficient Information

62. Develop a series of incentives to encourage and direct the public to use the
    electronic self-service model.

   Agency Response:        Not agree

   Agency Action:          Will not implement

   SSA stated it had talked about offering incentives for years, but it did not see how it
   could work in their environment.

63. Lead in developing a National Health Information Network, Health Information
    Exchanges and the adoption of electronic medical records.

   Agency Response:        Not agree

   Agency Action:          Will not implement


                                           H-13
   SSA stated that if they invest now, then the National Health Information Network that
   comes a few years from now may look different than what they designed for, and
   they would have used crucial resources too early.

64. Work to establish industry standards for health information data security and the
    security of personally identifiable information.

   Agency Response:        Insufficient Information

   Agency Action:          Insufficient Information

65. Encourage and subsidize the adoption of electronic medical records with
    connections to disability examiners in the States and to SSA.

   Agency Response:        Insufficient Information

   Agency Action:          Insufficient Information

66. Implement a program to automate the initial disability claim decision that would only
    require human review for denied claims.

   Agency Response:        Agree

   Agency Action:          Plan to Implement

67. In designing online applications, position the Agency to support mobile devices and
    be prepared to convert internet applications to these platforms while simultaneously
    maintaining the current desktop platform.

   Agency Response:        Insufficient Information

   Agency Action:          Insufficient Information

68. Develop a prototype and production systems to distribute benefits via cellular
    telephones.

   Agency Response:        Other Agency

   Agency Action:          None – The Agency stated it is Department of Treasury’s
                           responsibility




                                           H-14
69. Establish electronic service delivery 3 as a strategic goal for all employees - Create a
    publicity campaign to inform employees about the development and implementation
    of an electronic self-service model.

    Agency Response:           Insufficient Information

    Agency Action:             Insufficient Information

70. Establish electronic service delivery as a strategic goal for all employees - Explain
    how employees will benefit from the electronic self-service model and how its
    implementation will help the Agency achieve its goals.

    Agency Response:           Insufficient Information

    Agency Action:             Insufficient Information

71. Establish electronic service delivery as a strategic goal for all employees - Hire
    employees at all levels with the desire, aptitude, and ability to complete work
    assignments electronically.

    Agency Response:           Insufficient Information

    Agency Action:             Insufficient Information

72. Seek legislation that would require that all employers file required documents
    electronically.

    Agency Response:           Other Agency

    Agency Action:             None - The Agency stated it is Department of Treasury’s
                               responsibility

73. Lead a Government-wide study group to discuss options with other agencies to pilot
    a single Government service center in each region for individuals who need
    face-to-face service across different agencies.

    Agency Response:           Insufficient Information

    Agency Action:             Insufficient Information




3
 Electronic Services offer the public, businesses, and other government agencies access to SSA
services via the Internet, telephone automation, and direct data exchange.


                                                H-15
74. Consider contracting out providing the face-to-face services by third parties versus
    each agency. Look at the model in some State Departments of Motor Vehicles.

   Agency Response:         Insufficient Information

   Agency Action:           Insufficient Information

75. Consider outsourcing some activities to third parties, such as libraries.

   Agency Response:         Not agree

   Agency Action:           Will not implement

   The Agency stated that outsourcing is not a political reality.

76. Develop and implement a video capability for disability claimants at field offices and
    those with cameras on their desktop computers.

   Agency Response:         Insufficient Information

   Agency Action:           Insufficient Information

77. Develop video kiosks to provide service to customers.

   Agency Response:         Agree

   Agency Action:           Plan to implement

78. Develop and make available training web videos on how to find information and
    complete transactions on the Internet.

   Agency Response:         Agree

   Agency Action:           Plan to Implement




                                            H-16
                                                                      Appendix I

Scope and Methodology
To accomplish our objective, we:

•   Researched Federal requirements for advisory panels.

•   Interviewed the Social Security Administration’s (SSA) Future Systems Technology
    Advisory Panel’s (FSTAP) current and original Designated Federal Officer.

•   Reviewed FSTAP historical documents, including the charter, and Commissioner’s
    Scope of FSTAP Recommendations.

•   Reviewed the documents for the FSTAP’s public meetings to include the minutes
    and transcripts for the meetings held on November 5 and 6, 2009; May 4, 2010; and
    August 3, 2010.

•   Reviewed the Agency’s response to the FSTAP Data Center Migration report.

•   Reviewed FSTAP associated costs. We relied primarily on the FSTAP cost data
    SSA provided to complete our review and determined that the data were sufficiently
    reliable to meet our audit objective.

•   Read the FSTAP reports:

          Re-imagining Social Security
          Legacy Systems Conversion
          Data Center Migration
          Low Hanging Fruit/Quick Victories

We performed our evaluation at SSA’s Headquarters in Baltimore, Maryland, between
August and November 2011. The entities reviewed were the Offices of the Deputy
Commissioners for Systems and Budget, Finance and Management. We conducted our
review in accordance with the Council of Inspectors General on Integrity and
Efficiency’s Quality Standards for Inspection and Evaluation.
                                                                          Appendix J

Future Systems Technology Advisory Panel
Meeting Minutes November 5, 2009
                     Future Systems Technology Advisory Panel

                             November 5 and November 6, 2009
                                  Omni Shoreham Hotel
                                 Washington, D.C. 20008

                                           Minutes

1. The Future Systems Technology Advisory Panel held its fifth meeting on November 5,
   2009 from 10:00 A.M. to 5:00 P.M. and on November 6, 2009 from 8:30 A.M. to 12:00
   P.M. in the Empire Ballroom of the Omni Shoreham Hotel in Washington, D.C. The
   meeting was open to the public from 10:00 A.M. to 5:00 P.M. on the first day and from
   8:30 A.M. to 12:00 P.M. on the second day.

2. Attendees included:

   a. Future Systems Technology Advisory Panel members:

   • Gregory E. Buoncontri, Executive Vice President and CIO, Pitney Bowes, Inc.
   • John D. Halamka, MD, MS, Harvard University, CIO, Harvard Medical School, CIO, Beth
     Israel Deaconess Medical Center. Note: Dr. Halamka was available by telephone only.
   • Henry C. Lucas, Jr., Department Chair and Smith Professor of Information Systems,
     University of Maryland. Note: Mr. Lucas was present on November 5,2009.
   • Maria R. Morris, Executive Vice President, Technology & Operations, MetLife, Inc. Note: Ms.
     Morris was present on November 5, 2009
   • Alan Balutis, Director of the North American Public Sector, Cisco Systems' Business
     Solutions Group
   • Blaise Heltai, Founder, Genus2 Technology
   • David McClure, Associate Administrator, Citizen Services and Communications, U.S.
     General Services Administration
   • CJ Moses, Senior Manager, Amazon Web Services

   Social Security Administration Officials:
   • Jason Fichtner, Chief Economist
   • Michael Gallagher, Deputy Commissioner of Budget Finance and Management
   • Stephanie Hall, Acting Assistant Deputy Commissioner of Budget Finance and Management
   • Bill Gray, Deputy Commissioner for Systems
   • Frank Baitman, Chief Information Officer
   • Greg Pace, Deputy Chief Information Officer
   • Jim Borland, Special Advisor for Health IT
   • Amy Thompson, Deputy Special Advisor for Heath IT
   • Patrick O'Carroll, Inspector General



                                             J-1
   • Jim Kissko, Deputy Inspector General
   • Steve Schaeffer, Assistant Inspector for Audits

       1. Social Security Administration Staff: Dianne Rose, Designated Federal Officer
          (DFO)

       2. Members of the Public who presented oral or written statements: Comment by Jeff
          Guild of the Computer and Communications Industry Association.

       3. Other members of the public: Several members of the public attended the meeting

3. Description of matters:

     a. Welcoming remarks: Alan Balutis, panel Chairman, made welcoming remarks.
        Panel members and agency officials introduced themselves.

         Dianne Rose introduced herself and members of the panel support staff. She
         discussed the meeting agenda and completed action items.

         The panel was advised that a Social Security number request cannot be initiated
         for an unnamed infant; the full name must be provided.

         The panel asked for a briefing on the Michigan Reconsideration Pilot and this will
         be arranged.

     b. Low Hanging Fruit Quick Victories Report - Agency Response was presented by
        Bill Gray, Deputy Commissioner for the Office of Systems and Frank Baitman,
        Chief Information Officer.

         The agency responded to the panel's recommendations concerning the
         electronic folder, enhancements to the electronic disability claims process,
         systems security access, disability claims processing and to a recommendation
         that the agency utilize an IRS model to promote increased internet business
         interaction with the agency.

         The panel suggested that the agency provide stronger support, for electronic
         services, electronic processes and enhancements and find ways to encourage
         and develop incentives to push greater use of online services.

     c. OIG's Information Technology Audit Workload: Past and Future was presented by
        Patrick P. O'Carroll, Jr., Inspector General, Social Security Administration, James
        A. Kissko, Deputy Inspector General, Social Security Administration and Steven L.
        Schaeffer, Assistant Inspector for Audit, Office of the Inspector General, Social
        Security Administration.

         The panel heard a briefing on the Inspector General Act of 1978 and the creation
         of the SSA Office of the Inspector General (OIG) in 1995, OIG's role in providing
         independent oversight of many federal agencies, conducting independent audits
         and making recommendations to improve efficiency, reduce waste, fraud and
         abuse and it heard that IG findings are reported to the Commissioner and to
         Congress.


                                              J-2
   The panel heard that the IG identified the need for SSA to have a greater
   strategic view rather than a tactical view in planning for IT resources. It heard
   that the IG has identified several deficiencies in the agency's overall IT capital
   planning and investment process. It also heard that the agency faces major
   management challenges as it develops the needed long-term IT strategy.

   The panel heard discussion concerning several OIG audits and audit reports
   which align with FSTAP panel subcommittee work on Data Center Migration,
   Backlog Management, Re-imaging SSA, Authentication, Privacy, and Fraud
   Detection, Legacy Systems Conversion and Systems Development, and Health
   Information Technology. The panel heard discussion concerning OIG's audit
   selection methodology, the data centers, the agency's recovery plan, migration of
   data between sites and use of industry best practices in data center replacement
   strategy and the self-help personal computer pilot. The panel also heard
   discussion concerning the agency's computer security program compliance,
   centralized versus decentralized management structures and incomplete
   planning within the agency.

   The panel heard a discussion on the limiting effect of the agency's aversion to
   risk within the authentication process and GSA's earlier attempt at across
   government authentication. It also heard a discussion on a review of roles and
   responsibilities in information security.

   The panel heard that the OIG recommends a robust and independent Chief
   Information Officer function with a full breadth of functions, responsibility and
   authority as provided under the Clinger-Cohen Act. OIG also recommends that
   the CIO have responsibility for setting policy, providing oversight and ensuring
   policy implementation.

   The panel requested copies of the Clinger-Cohen Act and the copies of the
   audits the OIG provided to the agency. The panel recommended that the OIG
   review the Clinger-Cohen Act report language for specific implementation
   guidance. The panel also recommended that OIG receive copies of the panel's
   reports.

   The panel heard that the legacy systems conversion process is underway and
   that the OIG will provide lessons learned for the conversion of remaining files.

   OIG discussed various actions the agency has taken concerning HIT and found
   that it developed an adequate HIT spending plan.

d. Health Information Technology Subcommittee Update presented by Blaise Heltai,
   Subcommittee Chair.

   Dr. John Halamka joined the discussion by telephone conference call.

   The subcommittee discussed proactive identification of points of leverage that
   may affect HIT outcomes in both the short and long term, the universe of medical
   claims and medical disability decisions, requests for and sources of medical
   information and the agency's payment for medical evidence. The subcommittee
   discussed the MEGAHIT process, data conversion and storage of the TIFF


                                          J-3
   (Tagged Image File Format) image in the electronic folder, structured and
   unstructured data and the incremental release of MEGAHIT functionality.

   The subcommittee described standardization, data exchange using a universal
   electronic format and internet technology, projected return on investment
   provided by automated analysis of information and the use of a set of disability
   impairment rules over multiple HIT documents. They discussed the need for a
   long term HIT vision as part of an ultimate disability service model, the effect of
   evolving standards on HIT adoption, incentives for HIT implementation and the
   use of Stimulus funds for this purpose, meaningful use of electronic health care
   technology and partnering with VA and DOD to push standards adoption. The
   subcommittee discussed HIT integration within a complete disability delivery
   vision, HIT's role in the use of medical evidence and industry forces that affect
   the development of appropriate standards.

e. Legacy Systems Conversion and Systems Development Subcommittee
   Update presented by Blaise Heltai on behalf of Andy Buckler,
   Subcommittee Chair.

   The panel heard that the subcommittee is engaged in systems development and
   systems migration methodologies. It heard that the agency is migrating its
   databases, that it has several strategic development application projects
   underway and these projects align well with the agency's overall strategic and
   technology goals. It heard that the focus of the agency's IT roadmap should be
   on strategic systems and applications that will have a significant impact on
   business costs and results as well as IT costs.

   The panel heard that a detailed system analysis should be undertaken to identify
   those systems that should be rewritten, modified, re-platformed, isolated or
   sunset. The subcommittee recommended that this become a function of the
   Chief Information Officer. The panel heard that the agency has conducted
   application portfolio management and it recommended that analysis be done in a
   systematic, realistic way.

   The panel heard that the conversion and development strategy should include
   architectural decisions, resource requirements for the operation and maintenance
   of ongoing systems, a realistic to-be vision and a highly defined set of steps that
   the agency will take to achieve this vision. The panel recommended that ROI
   analysis on project re-platforming should include the cost of decommissioning old
   applications.

   The panel heard that buy-in from business stakeholders will help ensure that
   investment decisions are driven by strategic priorities in the short and long terms.




                                          J-4
          It heard that business stakeholders must agree to focus the agency's IT
          resources on strategic priorities and that these priorities should be used to drive
          IT investment decisions.

f.   Disability Backlog Subcommittee Update presented by Maria Morris, Subcommittee Chair.

     The subcommittee discussed its expanded description of work and its actions taken.
     After subcommittee panel members and their private industry subject matter experts met
     with and supplied information to agency personnel, the subcommittee recommended
     that the agency have a single process owner of the end-to-end disability process who
     possesses expanded governance and decision rights. MetLife provided its job
     description for this position to SSA. The subcommittee recommended that the agency
     map business models before making final technology decisions and that activity based
     costing be used with the end-to-end decision making process.

g. Panel Deliberations The panel moved to deliberate, discussed its role, its work,
   and considered written reports. It considered closing, creating and restructuring
   subcommittees. The panel agreed to combine the Health Information Technology
   Subcommittee with the Disability Backlog Subcommittee to form one joint
   subcommittee.

     The minutes of the fourth panel meeting (August 2009) were approved.

     Jeff Guild of the Computer and Communications Industry Association provided
     public comment and a letter from David R. Bryant; Attorney at Law was inserted
     in the record.

h. Introductions and HIT Discussion presented by Jim Borland, Special Advisor for HIT,
   Office of the Commissioner.

     Mr. Borland discussed the current healthcare debate and its potential effects on SSA, a
     change in focus from output to outcome, incentives for providers and technical
     assistance for clinicians, the American Recovery and Reinvestment Act and its high tech
     provisions, which are specific to HIT, and Health IT extension centers. He also
     discussed the agency's disability processing needs, its collection of large volumes of
     medical records, its move from paper to digital paper and structured data flowing over
     the Nationwide Health Information Network (NHIN), and the agency's leadership role in
     Heath IT.

i.   State of HIT for the United States presented by Dr. David Blumenthal, National
     Coordinator for Heath Information Technology, Department of Health and Human
     Services.

        Dr. Blumenthal discussed the importance of information and electronic systems to medicine
        and said that these systems must be organic, fluid and responsive.
     He discussed the complicated nature of the current system, which includes tens of
     thousands of small businesses made up, in part, of physician's practices
     where over 200,000 professionals, over age 55, are more comfortable in a paper-
     based rather than electronic environment and only about 1/5 of all U.S.
     physicians have Electronic Health Records (EHR). He discussed the low level of EHR
     adoption in hospitals and said that we are starting from a very low base of capability and


                                                J-5
     trying to mobilize a highly decentralized system that is acculturated to paper and to a high
     level of autonomy. He discussed the sensitivity of information, the need to treat people in
     a very sensitive manner and the annual growth in need for health care. He discussed the
     incentives for HIT adoption under the American Recovery and Reinvestment Act using
     Medicare and Medicaid and the funding Congress provided for this purpose. He
     discussed the current fee-for-service system's incentives of volume rather than
     performance, the lack of a business case for improved quality of care and reduced cost,
     uncertainty in assessing the number of physicians and hospitals who will participate, the
     need for funding and technical support, Meaningful Use requirements, EHR standards
     and certification criteria and development of a governance system for the NHIN.

     The panel discussed the drivers in health care spending growth, use of lessons
     learned at other organizations, the expected decline in costs over IT iterations and the effect
     of increased volume on these costs.

j.   State of Standards presented by panel member, Dr. John Halamka.

     Dr. Halamka discussed Meaningful Use, IT content, vocabulary and transport
     standards, rollout schedules, data security and the consistent, broad data
     exchange of queryable information across the system nationwide.

     Dr. Halamka discussed automatically created quality measures using HER
     codified and structured data, text data in MEGAHIT, the use of Health
     Information Exchanges, the interoperability of data exchanges and the
     implementation and adoption of standards.

k. Re-imagining Subcommittee Update presented by panel member, Gregory Buoncontri on
   behalf of Dr. Hank Lucas, Subcommittee Chair

     Using the February 2009 SSA 101 presentation as its basis, the subcommittee
     discussed as-is and to-be models of interaction with the agency, convenience,
     consumerization, use of Personal Digital Assistants (PDA), incentives and
     declining price points. The subcommittee discussed the agency's opportunities
     to educate and interact at significant life events, HIT, and Disability video
     teleconferencing from home or office.

     The subcommittee recommended that the agency more actively promote the use of
     technology and form coalitions in both public and private sectors to do this.

I.   HIT at SSA Today presented by Marty Prahl, Lockheed Martin.

     Mr. Prahl discussed the history of HIT at the agency and provided a MEGAHIT technical
     overview. He discussed HIT and the NHIN and their use to support SSA's Disability
     impairment listings. He also discussed partnerships and interoperability, patient
     authorization, identification and credentialing, security, HIPPA and HITSP standards, the
     Continuity of Care Document, use of diagnostic procedure codes, disability listings, IT
     architecture, the agency's Connect Gateway, business rules, licensing, vocabularies,
     capability and interoperability. He said that American Recovery and Reinvestment Act
     funds will be used to increase partnership among healthcare facilities and with Health
     Information Exchanges. He discussed efforts to expand business rules, the utilization of
     personal health records and natural language processing. He also discussed the use of


                                                 J-6
   a medical data repository, medical status updates and a more focused development of
   medical evidence.

   The panel discussed prospective care plans for disabled claimants, architectural
   changes allowing improved MEGAHIT functionality, translation of terminology and NHIN
   scalability.

       m. SSA Strategic Vision of HIT presented by Jim Borland, Special Advisor for HIT, Office
          of the Commissioner.

           Mr. Borland discussed the agency's business process and the hypothetical
           nature of the agency's HIT strategic visioning. He discussed efficient use of
           funding to produce business value and results, policy simplification, changes to
           law, initial HIT strategic goals, MEGAHIT expansion and competitive contracts,
           HIT pilots and processing times. Mr. Borland discussed the current status of the
           HIT vision, electronic authorization for release of medical records, MEGAHIT at
           Disability Determination Services and Hearing Offices, incentives, adoption,
           implementation, the Microsoft Health Vault PHR project, the central medical
           repository and viewer, the Federal MER (Medical Evidence of Record) process,
           interoperability between agencies, Meaningful Use, both image and structured
           data, data analysis for policy decisions, natural language, processing, standards,
           outreach goals and uses for aggregate medical data.

3. Certification
Dianne Rose




                                               J-7
                                                                         Appendix K

Future Systems Technology Advisory Panel
Meeting Minutes May 4, 2010
                     Future Systems Technology Advisory Panel

                                        May 4, 2010
                                       Hotel Palomar
                          117 South 17'h St, Philadelphia, PA 19103

                                          Minutes

1. The Future Systems Technology Advisory Panel held its seventh meeting on May 4,
   2010 from 9:00 A.M. to 4:00 P.M. in the Burnham Ballroom of the Hotel Palomar in
   Philadelphia, PA. . The meeting was open to the public from 9:00 A.M. to 4:00 P.M.

2. Attendees included:

            a. Future Systems Technology Advisory Panel members
              • Alan Balutis, Panel Chair and Director of the North American Public
                 Sector, Cisco Systems' Business Solutions Group
              • Phil Becker, Associate Commissioner for the Office of
                 Telecommunications and Systems Operations, Social Security
                 Administration
              • Andy Buckler, Special Advisor to the Deputy Commissioner Services
                 & Enforcement, Internal Revenue Service
              • Gregory E. Buoncontri, Executive Vice President and CIO, Pitney
                 Bowes, Inc.
              • John D. Halamka, MD, MS, Harvard University, CIO, Harvard
                 Medical School, CIO, Beth Israel Deaconess Medical Center. Dr.
                 Halamka was available by telephone only.
              • Blaise Heltai, Founder, Genus2 Technology
              • Henry C. Lucas, Jr., Department Chair and Smith Professor of
                 Information Systems, University of Maryland
              • David McClure, Associate Administrator, Citizen Services and
                 Communications, U.S. General Services Administration
              • CJ Moses, Senior Manager, Amazon Web Services. .
              • Frank Reeder, Founder, The Reeder Group.
              • Steve Sullivan, Vice President of Global Technology Services, T.
                 Rowe Price Group, Inc.

            b. Social Security Administration Officials
              • Michael J. Astrue, Commissioner of Social Security
              • Frank Baitman, Chief Information Officer
              • Betsy Bake, Associate Commissioner, Office of Facilities
                 Management



                                             K-1
              •   Jim Borland, Associate Commissioner, Office of Electronic
                  Serviceand Strategic Information, Office of Disability Adjudication and
                  Review
              •   Kelly Croft, Deputy Commissioner, Office of Systems.
              •   Ephraim Feig, Associate Chief Information Officer for Vision and
                  Strategy .
              •   David Foster, Assistant Deputy Commissioner for Quality
                  Performance
              •   Michael Gallagher, Deputy Commissioner for Budget, Finance, and
                  Management.
              •   Eric Kressman, Regional Chief Counsel, Philadelphia
              •   William Martinez, Deputy to the Special Advisor for Health
                  Information Technology
              •   Greg Pace, Deputy Chief Information Officer
              •   Ron Raborg, Deputy Commissioner for Quality Performance
              •   Debbi Russell, Associate Commissioner, Office of Automation
                  Support

            c. Social Security Administration Staff
              • Ginny Skiest for Dianne Rose, Designated Federal Officer (DFO)
              • Devin Fensterheim, Hardy-Apfel IT Fellow

            d. Members of the Public who presented oral or written statements
              • None

            e. Other members of the public
              • Several members of the public attended the meeting

3. Description of matters:

   Tuesday, May 4, 2010
  a. Meeting Kick-Off: Alan Balutis, panel Chairman, made welcoming remarks.
     Panel members and SSA officials introduced themselves.

      Ginny Skiest introduced herself and members of the panel support staff. She
      discussed the meeting agenda, completed action items, and documents provided to
      the Panel.

      The panel unanimously approved the meeting minutes of the sixth panel meeting.

   b. Data Center Migration Report and Data Center Trends and Best Practices
      Discussion - Agency Feedback was presented by Frank Baitman, Kelly Croft,
      Michael Gallagher, and Betsy Bake.

      The panel heard the agency response to the Panel's report on data migration.
      The agency generally concurred with the panel's comments, observations, and
      recommendations.

      The panel heard, as background information, that SSA's existing data center will
      soon need replacement, and that there is a need to continue operations at the
      existing data center through the anticipated production date of the new center in


                                              K-2
2015. The agency is retrofitting the existing center to bridge this gap, for instance,
by purchasing spare parts for the uninterrupted power supply system. There is also
a need for additional data consumption; an additional servers are added each month,
resulting in power delivery becoming an issue.

The panel heard that the agency strongly agrees with the panel's recommendation
for hardware virtualization, and it heard that the agency has an active virtualization
plan. The agency also agreed with the panel's recommendation that hardware
refreshment be focused primarily at the second site while refreshment at the existing
NCC is minimized.

The agency indicated that the panel's recommendation for application portfolio
management could warrant future requests to the Panel. SSA maintains over 500
production legacy applications, and has an existing process to manage the portfolio
and to evaluate business value and maintenance costs. The panel heard that the
process of developing the portfolio and preventing migration of unneeded
applications is expected to be an ongoing process and that it may be an area in
which the agency may seek future support. The panel also heard about the
revamped IT investment process which produced SITAR (Strategic IT Assessment
and Review). SITAR was designed to develop more strategic IT investment, and it
divides IT investment among eight Portfolios Executives across the enterprise. The
panel heard that analysis indicates that over 40% of IT spending is used on
maintenance activity. The agency said that this is an area of concern that the SITAR
process will be used to address.

The panel heard the agency concurs with the recommendation to limit the number of
staff in the new data center. Mr. Buoncontri indicated that the agency utilize remote
access to the data center, Mr. Moses concurred, indicating that legacy systems may
require a higher onsite workforce, that office space is much less expensive than data
center space, and that data centers are generally unmanned except when access to
hardware is needed. Mr. Buoncontri recommended that the agency choose a
staffing target and adhere to that limit.

The panel heard the agency's response to observations from the panel regarding the
silo nature of the business approach. This response indicated that the agency
endeavors, through the SITAR process, to move from a silo to a matrix management
approach in order to increase accountability. The panel heard that the SITAR
process involves making investments that span the enterprise and represent the
correct investments for the entire agency.

The agency updated the panel on the data center acquisition and reported that the
agency is currently engaged with GSA to build a program of requirements for award
of the contract. The agency indicated that the recommendation that one person be in
charge has great appeal. The agency reported that SSA and GSA meet quarterly
with Congressional staff, and that SSA takes questions and responds quickly to
Congressional inquiries.

The agency reported initial plans to move certain workloads to the cloud to realize
the resulting process efficiency. E-mail was suggested as a potential initial cloud-
based application. The panel heard that the agency would consider placing
additional applications in the cloud, but that doing so requires a baseline for risk


                                         K-3
   assessment. Several panel members offered feedback, indicating that while
   responsibility is transferred, risk is not, and that due diligence in selecting a provider
   is necessary.

   Mr. Gallagher indicated that power consumption is a concern, and asked the panel
   for additional recommendations. The panel discussed mechanisms for reducing
   power consumption, including running the data center at a higher temperature,
   placement of hardware in separate rooms in contrast to a large open space, and
   reducing unnecessary code. Mr. Buoncontri offered to coordinate further
   discussion on this topic.

c. Data Center Construction - A First-hand Experience was presented by panel
   member Steve Sullivan.

   Mr. Sullivan presented on T. Rowe Price's experiences in the construction of a data
   center for disaster recovery of about 350 applications. The data center is a 60,000
   square-foot facility including two separate 10,000 square-foot data centers.

   The panel heard that T. Rowe Price was experiencing several of the issues in the
   disaster recovery space as SSA is experiencing in its primary space, including power
   supply and data center space issues. The panel heard that outsourcing and co-
   location were considered as possibilities; the costs for co-location or keeping the
   data center inside were about equal, and the firm decided to maintain control.

   The panel heard that the selected location met the distance and infrastructure
   requirements. .

   The panel heard that T. Rowe Price engaged in a nine-month site selection process.
   Verizon was contracted to evaluate the site and to evaluate risks. The site was
   ultimately selected due to available infrastructure, low risk of natural or human
   disasters, carrier coverage, and proximity to the production site.

   The panel saw a series of photographs documenting the construction of the data
   center between July, 2009 and April, 2010.

d. Re-Imagining SSA Subcommittee Report was presented by panel member
   Henry Lucas.

   Dr. Lucas presented the findings of the Re-Imagining SSA Subcommittee. The
   subcommittee used a scenario from SSA on agency processes, and attempted to
   imagine that process in a different environment. The subcommittee attempted to
   develop a sufficiently radical report and to push frontiers, to effect observable
   change.

   The subcommittee recommended that online customer service model be the primary
   interaction channel for most of the US population. The panel heard that where there
   are many fewer points of face-to-face contact, such transition requires a major
   change in the organization itself. The subcommittee recommended moving away
   from paradigm where we serve people by meeting face-to-face, and presented the
   objective that 90% of all service transactions be completed electronically by 2015.



                                             K-4
Mr. Buckler indicated that IRS electronic filing, introduced in 1990, is currently about
70% and expressed concern that the 90% goal is too high.
Commissioner Astrue indicated that there is something to be said for a difficult goal,
and that currently 80% of people are using electronic wage reporting , and direct
deposit transactions may increase significantly with upcoming treasury initiatives.
The Commissioner indicated that the agency is likely to make major transactions
accessible on line and then set objectives that are aggressive but achievable. The
agency is also engaged in cost effective advertising campaigns to advertise suites of
services that encourage family members to help those needing access to SSA
services.

Mr. Reeder expressed fundamental concern speaking of service delivery as though
there is an expectation that people come to SSA as opposed to reaching out to the
customer. Mr. Reeder indicated that it is counter-intuitive that people would come
to SSA for a once-in-a-lifetime transaction, and argued that it would not be possible
to exceed 20% without utilizing different channels including the nation's financial
infrastructure.

Dr. Lucas reported that the use of HIT is very promising in reducing the length of
time to process a disability claim. The panel learned earlier that MetLife uses a
program to automatically determine disability, and reviews only the denials.
Commissioner Astrue said that electronic records are problematic since they produce
a significant number of false positives from 2.2 million filings; for instance, the text
"We ruled out ALS" might be recorded erroneously as ALS.

Dr. Lucas recommended that all applications need to be accessible on cell phones.
Mr. Astrue said that some third world nations are issuing payment through cell
phones as an alternative for those who don't have traditional bank accounts.

Dr. Lucas proposed the implementation of a physical one-stop shop for government
services, similar to the Australian CentreLink, which could use video kiosks and
involve multiple state and federal agencies. Mr. Buckler indicated that the costs to
maintain video kiosks are excessive, and instead organizations typically place
workstations in walk-in office, encouraging customers to use web-based services.
IRS has worked through volunteer organizations for tax preparation, and can
consider such organizations as an extension of the workforce; and that while kiosks
in public areas are appealing, physical security, maintenance, telecommunications,
and information security issues tend to make this approach infeasible.
Commissioner Astrue also noted that kiosks tend to not be used, and indicated as an
example an unused kiosk observed in a Seattle field office waiting room that had not
been used for several weeks. Dr. Lucas suggested that the waiting-room population
might be self-selected, and that the agency may have skimmed out the kiosk-using
population.

The panel heard discussion of disruptive future technologies. Dr. Lucas reported
that a single breakthrough to eliminate the backlog was unlikely, and suggested the
move to the Internet for as many transactions as possible and to utilize third parties.

Mr. Balutis suggested some minor changes and additional research on the use of
mobile devices. Mr. Heltai and Mr. Balutis volunteered to provide assistance.
Contingent on these final modifications, the panel unanimously accepted the report.


                                         K-5
e. Legacy Systems Subcommittee Report was presented by panel member Andy
   Buckler.

     Mr. Buckler provided a summary of the subcommittee report. The subcommittee
     discussed the transfer from MADAM to DB2, and found mainframe based DB2 to be
     a reasonable technology solution.

     The subcommittee suggested that the Agency bring in outside help to ensure the
     robustness of the data model. The subcommittee also made suggestions around the
     planning process in aligning the business strategy with application process, and
     found the SITAR process to be consistent with these recommendations.

     The Panel approved the report without objection.

f.   Privacy, Authentication , and Fraud Detection Subcommittee Update was presented
     by panel member Frank Reeder.

     Mr. Reeder provided a summary of the draft subcommittee report. The
     subcommittee reported that the ability to move from face-to-face to electronic access
     is important, and that the agency is constrained by two sets of concerns: the
     necessary authentication methods through the National Institute of Science and
     Technology, and a very low tolerance for risk from both a financial and reputational
     standpoint.

     The panel heard that the Agency has developed an authentication strategy. The
     agency is in the process of implementing a solution for Level-3 authentication. The
     subcommittee found that the strategy, based on its observations, is sound.

     Mr. Reeder reported that the subcommittee's main concern was from a reputational
     risk perspective, and recommended a more extensive consultation with affected
     groups from a privacy and usability perspective.

     The panel heard that the agency had expressed an interest in having the views of the
     Panel on alternative means to provide Level-3 credentials. Mr. Reeder asked the
     panel for additional thoughts on balancing the need for authentication while
     simultaneously achieving the agency objectives for electronic services usage.

     Mr. Moses expressed concern that the proposed use of credit card validation would
     subject the Agency to payment card industry security standard certification, and
     recommended against its use.

     Mr. Balutis inquired about earlier efforts to implement a government-wide PKI
     solution. Mr. McClure reported that this effort is ongoing that there is some
     consensus around a federal PKI standard.

     The panel discussed whether to appoint panel members with experience and
     background in this area. Mr. Baitman agreed to work with the panel to identify the
     exact nature of the request.

     The subcommittee agreed to finalize the report and present a final copy to the panel
     at the next quarterly meeting.


                                             K-6
  g. Marketing Online Services to a Spanish-Speaking Population - Follow-up was
     presented by Devin Fensterheim, Hardy-Apfel IT Fellow, SSA.

       The panel heard an historical perspective of this issue and a discussion of guidelines
       and vision as well as an assessment of operational drivers and future challenges.
       The panel also heard discussion of the agency's Retirement Estimator, the use of
       social media, the flexibility of e-services infrastructure.

  h. Disability Backlog and HIT Subcommittee Update was presented by panel members
     Blaise Heltai and John Halamka.

       Mr. Heltai and Dr. Halamka presented an update on the merged Disability Backlog
       and HIT subcommittee. The panel heard that the committee has moved toward
       broader process and governance issues. The panel heard that a paper will be
       delivered at the next quarterly meeting.

  i.   Agency-Wide Strategic Planning Status Update was presented by Frank Baitman
       and Ephraim Feig.

       Mr. Baitman discussed the agency's strategic planning process and the schedule for
       completion of the Agency Strategic Plan. The panel heard that the plan, whose
       targeted completion date is December 2010, will envision human resources,
       infrastructure and technology needs over a 5 to 10 year period and that it will include
       achievable, grand challenges as well as the use of metrics and short-term goals.

       Mr. Feig discussed taking action in an evolutionary way to make substantial gains in
       service delivery while reducing the cost of operations. He recommended clearly
       identifiable goals and practical methods. He said that an outreach program will begin
       immediately, stakeholders will be engaged, and that regional meetings and online
       forums will be held.

       Mr. Balutis recommended that the strategic planning process not be schedule driven
       and that it should be created in a very open, collaborative , communicative way that
       includes customers, constituents, citizens and other interested parties.

       Mr. McClure recommended that strategic planning be done in a quick rapid cycle and
       that the results be inculcated in the business planning and governance processes.
       He added that the agency should be rapidly re-engaged.

       The panel discussed development of a series of goals and Mr. Baitman asked for the
       panel's advice on metrics which can be used to drive the strategic vision.

  j.   New Subcommittee Discussion

      The panel created a subcommittee specifically designated to work with the Office of
      the Chief Information Officer in the area of strategic planning. The panel also
      created a joint subcommittee combining governance and policy with innovation and
      open government. Members were selected for both of these subcommittees.
4. Certification



                                                K-7
I, Dianne Rose, Designated Federal Official for the Future Systems Technology Advisory Panel
("FSTAP Panel") hereby certify that the above minutes accurately describe the seventh meeting
of the FSTAP panel, held on May 4,2010 from 9: 00 A.M. to 4: 00 P.M. in the Burnham Ballroom
of the Hotel Palomar, 117 South St., Philadelphia PA 19103.




                                              K-8
                                                                        Appendix L

Future Systems Technology Advisory Panel
Meeting Minutes August 3, 2010
                     Future Systems Technology Advisory Panel

                                     August 3, 2010
                                Park Hyatt Washinton D.C.
                                 Washington, D.C. 20037

1. The Future Systems Technology Advisory Panel held its eighth meeting on August 3,
   2010 from 10:00 A.M. to 5:00 P.M. in the Hyde Park room of the Park Hyatt Washington
   D.C. in Washington, D.C. The meeting was open to the public from 10:00 A.M. to 5:00
   P.M.

2. Attendees Included:

      a. Future Systems Technology Advisory Panel members
         • Alan Balutis, Panel Chair, Director of the North American Public Sector,
            Cisco System's Business Solutions Group
         • Andy Buckler, Special Advisor to the Deputy Commissioner Services &
            Enforcement, Internal Revenue Service
         • Gregory E. Buoncontri, Executive Vice President and CIO, Pitney Bowes,
            Inc.
         • Joan Conlin, Vice President of Customer Sales & Service, Lands' End
         • Blaise Heltai, Founder, Genus2 Technology
         • Nancy LeaMond, Group Executive Officer for Social Impact, AARP
         • David McClure, Associate Administrator, Citizen Services and
            Communications, U.S. General Services Administration
         • Maria R. Morris, Executive Vice President, Technology & Operations,
            MetLife, Inc.
         • CJ Moses, Senior Manager, Amazon Web Services
         • Frank S. Reeder, Founder, The Reeder Group
         • Steve Sullivan, Vice President of Global Technology Services, T. Rowe
            Price Group, Inc.

      b. Social Security Administration Officials
         • Frank Baitman, Chief Information Officer
         • Kelly Croft, Deputy Commissioner for Systems
         • Phil Gambino, AssistantDeputy Commissioner for Communications
         • Michael Gallagher, Deputy Commissioner for Budget, Finance and
            Management
         • Mary Glenn-Croft, Deputy Commissioner for Operations
         • Theresa Gruber, Assistant Deputy Commissioner for Disability, Adjudication
            and Review .
         • Gregory Pace, Deputy Chief Information Officer


                                            L-1
         •    Ron Raborg, Deputy Commissioner for Quality Performance
         •    Debbi Russell , Associate Commissioner, Office of Automation Support
         •    Reginald Wells, Deputy Commissioner for Human Resources
         •    Mike Zephir, Director of Health Information Technology and Electronic Policy
              for Office of Retirement and Disability Policy

      c. Social Security Administration Staff
         • Dianne Rose, Designated Federal Officer (DFO)
         • Devin Fensterheim, Hardy-Apfel IT Fellow

      d. Presenters
         • Alan Lane, Associate CIO for Open Government
         • Jeffrey Walsh, Policy Analyst on Authentication
         • Graham Mackenzie, Stored Value Card Program Manager, U.S. Department
            of the Treasury
         • Steve Kautsch , Associate Commissioner for Office of Enterprise Support,
            Architecture and Engineering
         • Duane Bray, Partner IDEO
         • Hailey Brewer, Partner IDEO
         • Martin Heaton, Partner IDEO

      e. Members of the public who presented oral or written statement
         • None

      f. Other members of the public
         • Several members of the public attended the meeting

3. Description of matters:

          Tuesday, 3 August 2010
       a. Welcoming remarks: Dianne Rose, Designated Federal Officer, made welcoming
          remarks, and introduced herself and members of the support staff. She
          discussed the meeting agenda, completed action items, the search for a new
          panel member, and documents provided to the panel for today's meeting. She
          introduced Greg Buoncontri as the temporary panel Chair in Alan Balutis'
          absence. Panel members and Social Security Administration Executive officials
          introduced themselves.

             The minutes of the seventh panel meeting were approved

       b. Authentication Scheme Briefing was presented by Alan Lane, Associate Chief
          Information Officer for Open Government and Jeffrey Walsh, Policy Analyst on
          Authentication.

             The panel heard a briefing on the Social Security Administration 's authentication
             process for public credentials, and authentication's alignment with the agency's
             strategic goals. The discussion focused on the agency's development of a
             strategic vision supporting improvement of core services provided to the public.

             The panel heard a discussion of plans to increase, strengthen and make online
             services more convenient to the American public.


                                                 L-2
   The panel heard a discussion of portals to view social security records, notices,
   benefit calculation information, and to review and suggest corrections to lifetime
   earnings records. They also heard a discussion of an online social security card
   replacement process, automated case adjudication, adherence to Federal and
   NIST guidance, use of credentials across agencies, risk assessment, data
   verification , identity proofing and cost containment.

c. Privacy, Authentication and Fraud Detection Update was presented by panel
   member, Frank Reeder.

   The panel heard the committee's suggestions that it assess the agency's
   progress in this area, from a systems standpoint. The committee agreed to
   provide a preliminary report that may not include recommendations, by the next
   quarterly meeting. It will consider fraud detection and socialization of
   applications.

   The committee recommended mapping through and understanding the new
   authentication scheme, and rollout plans since the method of roll out may affect
   citizens' experiences of the authentication process.

   Panel member, Andy Buckler, discussed the use of authentication at the Internal
   Revenue Service, saying that authentication processes at both agencies are
   similar and they face some similar challenges. He said that the Internal
   Revenue Service authentication process differs in that it has more frequent
   customer contact and that it can validate information internally.

   Panel member Greg Buoncontri, recommended that the committee examine
   fraud detection and risk and that it provide a full report for the next meeting.

   Dianne Rose asked committee members if they need additional meetings with
   agency officials. Frank Reeder indicated he would be interested in having further
   discussions with agency Executives.

d. Disability Backlog and Health IT Subcommittee Report was presented by panel
   members, Maria Morris and Blaise Heltai.

   The panel heard that the subcommittee's objective is to provide a draft
   whitepaper to the panel prior to the next meeting, in addition to a final report.
   The recommendations will be in subparts since the subcommittee's scope has
   extended significantly since its formation.

   The panel heard that the committee will make recommendations on the end-to-
   end disability process, and Health Information Technology's place within it. The
   panel also heard that the subcommittee will provide a separate report covering its
   work with Frank Baitman and the Chief Information Office regarding
   recommendations for governance.

e. Legacy Systems Report - Agency Response was presented by Frank Baitman,
   Chief Information Officer, Kelly Croft, Deputy Commissioner for Systems, Steve
   Kautsch, Associate Commissioner for Office of Enterprise Support, Architecture
   and Engineering.


                                        L-3
     The agency responded to the panel's recommendations from the Legacy
     Conversion Report. The panel said that its recommendations covered
     development of a comprehensive strategy, connections between the business
     and IT worlds to ensure that the agency has a long-term strategy to deliver
     systems conversion with true business value, the ability to apply resources where
     the greatest value can be driven, creation of plans that strategically align
     resources to business values, and that address the long-term viability of the
     environment ..

     The agency discussed actions it has taken to address legacy systems issues,
     including a move to service oriented architecture, building, modifying or dropping
     applications, development and enhancement of governance standards, and
     changing the IT investment decision making process.

     The panel discussed portfolio management, funding and governance processes,
     project management, and methods to reduce spending.
f.   Re-Imagining Report - Agency Response was presented by Frank Baitman,
     Chief Information Officer, Kelly Croft, Deputy Commissioner for Systems, Michael
     Gallagher, Deputy Commissioner for Budget, Finance and Management, Phil
     Gambino, Assistant Deputy Commissioner Communications, Mary Glenn-Croft,
     Deputy Commissioner for Operations, Theresa Gruber, Assistant Deputy
     Commissioner for the Office of Disability Adjudication and Review, Ron Raborg ,
     Deputy Commissioner for Quality Performance, Reginald Wells, Deputy
     Commissioner for Human Resources, and Mike Zephir, Director of Health IT and
     Electronic Policy, Office of Retirement and Disability Policy.
     The agency responded to a Re-Imagining SSA Subcommittee Report, which was
     presented at the May 2010 meeting. The agency asked Graham Mackenzie of
     the U.S. Department of the Treasury to address payment delivery and mobile
     devices within the federal system, separately.

     The panel heard a discussion of increasing workloads, and limited funding and
     staffing. The agency described steps it has taken to improve claims processing
     and future steps, including MySSA.gov. MySSA.gov is envisioned as a site at
     which American citizens can change their own contact information and view their
     own earnings records and Social Security statements. The agency discussed its
     authentication needs and a fast but incremental roll-out of the application.

     The panel heard that the agency needs business and policy subject matter
     experts as well as systems experts to make suggested systems changes. The
     agency discussed health care legislation and the special Medicare claims taking
     site in Libby, Montana, improved customer service, staff training , improved skills
     sets, and streamlining the business process. The agency discussed leveraging
     libraries and other organizations, human resource managers and financial
     planners to increase online contact.

     The agency discussed use of cell phones, mobile applications, kiosks, links to
     social media, federal resources, an i-phone application for frequently asked
     questions at the agency's site, placement of video service equipment in claims
     taking offices, portability of information, disability claims appeals, video
     teleconferencing, infrastructure an consolidation of physical sites across
     government. It also discussed self-service, accuracy in the claims development


                                         L-4
   and adjudication processes, quality of electronic records, timing of funding
   decisions and education for those who want to interact electronically with the
   agency.

g. Mobile Payments Briefing was presented by Graham Mackenzie, U.S. Treasury
   Department. Context was provided by panel member, Blaise Heltai..

   The panel responded to the Commissioner's request for information and views
   on mobile payments. Mr. Heitai summarized information provided by Yankee
   Group and described methods of mobile payment use as well as operational and
   authentication requirements.

   The panel heard a discussion of mobile phone use to pay for goods and services
   instead of cash or other negotiable instruments, use of mobile or smartphones to
   initiate payments and to receive payment notification, and information concerning
   existing software and communication protocols. The panel also heard that
   countries are using this technology to help people transfer money to areas where
   a banking network does not exist. This method relies on a network of agents to
   complete transactions.

   The panel heard a discussion of the components required to initiate or receive a
   mobile payment, of agencies making on-site payments, and payments made via
   e-mail address, or mobile phone number. It heard that this is made possible by a
   convergence of several things including the internet, ACH network, debit cards,
   and mobile technology rather than a new technology. It heard that barriers to
   mobile payment technology include lack of awareness, slow enrollment, account
   verification difficulty, linking accounts to financial tools, the issuance of PIN
   accounts, transaction encryption, protocol security, fraud control administration,
   regulation, and compliance.

   The panel discussed a mobile payment proof of concept as well as a pilot. It
   heard suggestions to move forward with mobile payments.

h. Improving the Retirement Experience Briefing was presented by business
   partners of IDEO, Inc. (IDEO), Duane Bray, Hailey Brewer and Martin Heaton.

   Frank Baitman introduced IDEO representatives to the panel saying that IDEO
   received an SSA contract intended to improve movement through the agency's
   various channels; online, in-person and the 800 number. He said that the
   company is interviewing agency employees, visiting field offices around the
   country and talking to members of the public who are of or will be of retirement
   age within 10 years.

   IDEO discussed better leveraging existing design capabilities, learning from
   industry best practices for online services, benchmarking consumer behavior
   both inside and outside government, understanding consumer perceptions of the
   agency, providing simplified language for beneficiaries, providing a "best in class"
   internet presence, and a calm, focused internet experience.
   The panel heard the public expects the agency to be a one-stop shop for
   services like Medicare and Social Services. IDEO proposes to improve customer
   experience when the agency can't provide direct support and must send the


                                       L-5
            customer elsewhere. The panel heard that the agency needs to address the
            future of Social Security in a way that builds trust and calms fears about the long-
            term financial viability of the programs.

            The panel heard that IDEO will continue to synthesize findings, engage more
            deeply in the subject, and obtain feedback.

            The panel heard the ultimate deliverable of this project is a shared set of designs
            for the website. IDEO will deliver a set of screens, and design principles, as well
            as methods of guiding the development of the future modifications of the
            website .

            The panel heard that IDEO is currently focusing on the public's retirement needs.
            IDEO will later consider third party involvement and ways to begin a customer's
            relationship with the agency sooner in life rather than later, to start retirement
            planning.

            The panel recommended that IDEO continue dialogues with Frank Baitman and
            perhaps return to a future quarterly meeting with their developed approach.

       i.   Public Comment

            There were no comments from the public.

       j.   Closing Remarks

            Dianne Rose provided a recap of the meeting and identified action items for the
            next quarterly meeting.

            Dianne Rose informed the panel that Commissioner Astrue renewed the charter
            for Future Systems Technology Advisory Panel for another two years.

   4. Certification

I, Dianne Rose, Designated Federal Official for the Future Systems Technology Advisory
Panel ("FSTAP Panel") hereby certify that the above minutes accurately describe the
eighth meeting of the FSTAP panel, held on August 3, 2010 from 10: 00 A.M. to 5:00 P.M.
in the Hyde Park room of the Park Hyatt Washington, 1201 241h Street NW, Washington,
D.C. 20037.

Dianne Rose




                                                L-6
                  Appendix M

Agency Comments
                                               Social Security
MEMORANDUM


Date:      July 9, 2012                                                            Refer To:

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft, “The Social Security Administration’s Implementation of
           the Future Systems Technology Advisory Panel Recommendations” (A-14-12-11222)—
           INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          M-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT,” THE SOCIAL SECURITY ADMINISTRATION’S IMPLEMENTATION OF
THE FUTURE SYSTEMS TECHNOLOGY ADVISORY PANEL
RECOMMENDATIONS” (A-14-12-11222)

Recommendation 1
Evaluate the cost/benefit of Future Systems Technology Advisory Panel recommendations,
especially those with which the Agency had agreed, and implement those with the greatest
potential to enable the Agency to meet its future customer service demands more efficiently
through the application of modern technology.

Response
We disagree. As the Commissioner of Social Security discussed with the Inspector General on
multiple occasions, it is clearly inappropriate to audit recommendations provided by an advisory
committee created by the Commissioner to solicit independent, external consideration of IT
issues.




                                              M-2
                                                                         Appendix N

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division

   Mary Ellen Moyer, Audit Manager

Acknowledgments

In addition to those named above:

   Jan Kowalewski, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-14-12-11222.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
